No.
IN THE

Supreme Court of the United States
BELLFLOWER UNIFIED SCHOOL DISTRICT,
Petitioner,
vs.

FERNANDO LUA, individually and on behalf of minor K.L.,
SANDRA LUA, individually and on behalf of minor K.L.,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

LAW OFFICES OF ERIC BATHEN
ERIC J. BATHEN
RICHARD D. BRADY
COUNSEL OF RECORD
(936) 336-7171
Email: richard.thebradyfirm@gmail.com
650 Town Center Drive, Suite 1200
Costa Mesa, California 92626
(714) 641-3559
Counsel for Petitioner
BELLFLOWER UNIFIED SCHOOL DISTRICT
Lawyers Brief Service • Appellate Brief Printers • (626) 744-2988 • (626) 332-5115

i
QUESTIONS PRESENTED
The Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1400 et seq., requires that each
Local Educational Agency (“LEA”) provide a free
appropriate public education (“FAPE”) to certain
eligible students. Petitioner is a California LEA within
whose boundaries student K.L. resided. K.L’s parents
unilaterally placed K.L. in a private parochial school
located outside Petitioner’s boundaries. An
Administrative Law Judge found Petitioner to be the
LEA responsible for providing reassessments to K.L. and
that Petitioner’s refusal to provide reassessments denied
K.L. a FAPE. As a remedy for the denial of FAPE, the
ALJ ordered Petitioner to reimburse K.L.’s parents for
the costs of the unilateral private placement. The
questions presented are:
1. Is the District of Residence the responsible Local
Educational Agency for providing reassessments,
and coordinate provision of special education, to a
student who lives within the residential boundaries
of that school district but who was unilaterally
parentally placed in a private parochial school
located within another school district’s boundaries?
2. Is reimbursement of the unilateral private placement
appropriate where there was no denial of FAPE prior
to the enrollment, parents failed to provide
preplacement notice to the District of Residence, and
the private parochial school provides no special
education services and is not otherwise appropriate?

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
The parties to this proceeding are:
Petitioner, Bellflower Unified School District
Respondents, Fernando Lua, individually and on
behalf of minor K.L., and Sandra Lua, individually and
on behalf of minor K.L.
The proceedings in other courts that are related to this
proceeding are:
• Bellflower Unified School District v. Fernando
Lua, et al., Case No. CV 18-0043 FMO (FFMx), U.S.
District Court for the Central District of California.
Judgment entered July 8, 2019.
• Bellflower Unified School District v. Fernando
Lua, et al., Case No. 19-55912, U.S. Court of Appeals for
the Ninth Circuit. Judgment entered October 26, 2020.
Order Denying Petition for Rehearing En Banc entered
December 2, 2020.
No corporations are involved in this proceeding.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES.. . . . . . . . . . . . . . . . . . . . . . iii
PETITION FOR WRIT OF CERTIORARI. . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED.. . . . . . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . 2
A.

Introduction.. . . . . . . . . . . . . . . . . . . . . . . . . 2

B.

2014 IEP Team Meeting. . . . . . . . . . . . . . . . 4

C.

CDE Compliance Matter.. . . . . . . . . . . . . . 11

D.

Due Process Matter. . . . . . . . . . . . . . . . . . 12

E.

ALJ’s Decision.. . . . . . . . . . . . . . . . . . . . . . 16

F.

District Court Appeal. . . . . . . . . . . . . . . . . 17

G.

Ninth Circuit Appeal.. . . . . . . . . . . . . . . . . 17

iv
Page
REASONS FOR GRANTING THIS PETITION. . . . . . 18
A.

The Ninth Circuit Improperly Determined
That BUSD Was the Local Educational
Agency Responsible For Reassessments and
Providing Special Education to Student. . . . . . . 19

B.

The Ninth Circuit Improperly Affirmed the
Remedy of Reimbursement For The Cost of
This Unilateral Private Placement.. . . . . . . . . . . 25
1.

There Was No Denial of FAPE Prior to
the Unilateral Private Placement. . . . . . . . 26

2.

The Private Placement Was Not
“Appropriate”.. . . . . . . . . . . . . . . . . . . . . . . . 31

CONCLUSION AND PRAYER FOR RELIEF.. . . . . . . . 41
APPENDIX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
LIST OF APPENDICES:
APPENDIX A. . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1 - A-6
Memorandum Opinion, Filed Oct. 26, 2020,
U. S. Court of Appeals For The Ninth Circuit,
Not For Publication

v
Page
APPENDIX B. . . . . . . . . . . . . . . . . . . . . . . . . . . . A-7 - A-8
Order Denying Petition for Rehearing en
banc, U. S. Court of Appeals For The Ninth
Circuit, Filed Dec. 2, 2020
APPENDIX C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-9
Judgment, U.S. District Court Central
District of California, Dated July 8, 2019
APPENDIX D . . . . . . . . . . . . . . . . . . . . . . . . . . A-10 - A-27
Order Affirming Decision of Office of
Administrative Hearings, U.S. District
Court Central District of California,
Dated July 8, 2019
APPENDIX E . . . . . . . . . . . . . . . . . . . . . . . . . . A-28 - A-64
Decision of Office of Administrative
Hearings, State of California, Dated
Nov. 20, 2017
APPENDIX F.. . . . . . . . . . . . . . . . . . . . . . . . . A-65 - A-123
List of Authorities:

vi
TABLE OF AUTHORITIES
Page
Cases
Amann v. Stow Sch. Sys.
(1st Cir. 1992) 982 F.2d 644.. . . . . . . . . . . . . . . 36-38
Baquerizo v. Garden Grove Unified Sch. Dist.
(9th Cir. 2016) 826 F.3d 1179. . . . . . . . . . . . . . . . 36
C.B. ex rel. Baquerizo v. Garden Grove
Unified Sch. Dist.,
(9th Cir. 2011) 635 F.3d 1155.. . . . . . . . . . . 31, 34-36
Edwards v. Aguillard (1987)
482 U.S. 578, 107 S.Ct. 2573,
96 L.Ed.2d 510.. . . . . . . . . . . . . . . . . . . . . . . . . 33, 34
Hendrick Hudson Central School
District, et al. v. Rowley (1982)
458 U.S. 176, 102 S.Ct 3034,
73 L.Ed.2d 690.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
J.W. ex rel. J.E.W. v. Fresno Unified Sch. Dist.,
(9th Cir. 2010) 626 F.3d 431.. . . . . . . . . . . . . . 19, 20
Lemon v. Kurtzman (1971)
403 U.S. 602, 91 S.Ct. 2105, 29 L.Ed.2d 745. . . . . 33
MM ex rel. DM v. Sch. Dist. of Greenville Cnty.
(4th Cir. 2002) 303 F.3d 523.. . . . . . . . . . . . . . . 38-40

vii
Page
Constitution
United States Constitution
First Amendment. . . . . . . . . . . . . . . . . . . . . . . . . 33
Federal Statutes
20 U.S.C. § 1400 et seq.. . . . . . . . . . . . . . . . . . . . . . . . . . . 2
20 U.S.C. § 1401 et seq. . . . . . . . . . . . . . . . . . . . . . . . . . . 2
20 U.S.C. § 1415. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
28 U.S.C. § 1254(1).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Regulations
34 C.F.R. § 300.130 et seq. . . . . . . . . . . . . . . . . . . . . . . . . 2
34 C.F.R. § 300.131.. . . . . . . . . . . . . . . . . . . . . . . 22, 24, 25
34 C.F.R. §§ 300.131 through 300.144. . . . . . . . . . . . 5, 21
34 C.F.R. § 300.146.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
34 C.F.R. § 300.148.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
34 C.F.R. § 300.341.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Federal Register
71 Fed. Reg. 46,540. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
71 Fed. Reg. 46,590 . . . . . . . . . . . . . . . . . . . . . . . . . . . 19-21
71 Fed. Reg. 46,592 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
71 Fed. Reg. 46,593. . . . . . . . . . . . . . . . . . . . . . . . . . 21, 23

viii
Page
California Statutes
California Education Code
§ 56000. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
§ 56171 et seq. . . . . . . . . . . . . . . . . . . . . 2, 21, 22, 24
§ 56172. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
§ 56174. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
§ 56176. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29, 30

1

PETITION FOR WRIT OF CERTIORARI
The Bellflower Unified School District
petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Ninth Circuit.
OPINIONS BELOW
The Ninth Circuit’s October 26, 2020
unpublished memorandum appears at 2020 WL
6268424 (9th Cir. October 26, 2020) and attached
as Appendix A. The Ninth Circuit’s December 2,
2020 Order denying the petition for rehearing en
banc is attached as Appendix B. The July 8, 2019
opinion of the district court affirming the Administrative Law Judge’s Decision is attached as
Appendix D. The November 20, 2017 Administrative Law Judge’s Decision is attached as
Appendix E.
JURISDICTION
On July 8, 2019, the district court entered
judgment against the Bellflower Unified School
District, which affirmed the Administrative Law
Judge’s decision. BUSD filed a timely appeal to the
Ninth Circuit Court of Appeals, which affirmed the
judgment on October 26, 2020. BUSD filed a timely
petition for rehearing en banc. On December 2,
2020, the court denied the petition for rehearing en
banc. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

2

STATUTORY PROVISIONS INVOLVED
This case involves the Individuals with
Disabilities Education Act (“IDEA”), 20 U.S.C.
Sections 1400 et seq., 34 C.F.R. Section 300.130 et
seq., and California Education Code Sections 56171
et seq., the relevant portions of which are attached
as Appendix F.
STATEMENT OF THE CASE
A.

Introduction

This petition concerns the duty of Bellflower
Unified School District (“BUSD”), to provide
assessments and an offer of special education
services to K.L.1 (“Student”), a student who resides
with her parents (“Parents”) within BUSD’s
geographical boundaries but whom Parents
unilaterally placed at a private school within a
different school district’s boundaries, pursuant to
the Individuals with Disabilities Education Act
(“IDEA”) under 20 U.S.C. § 1401 et seq. and
California Education Code § 56000 et seq., as well
as the cases interpreting these statutes, including
Board of Education of the Hendrick Hudson Central
School District, et al. v. Rowley (1982) 458 U.S. 176,
102 S.Ct 3034, 73 L.Ed.2d 690 (“Rowley”).

Because the administrative record was
sealed by the District Court and the Student was a
minor when the District Court case was filed,
Student’s name will remain redacted as “K.L.”
1

3

In 2012, Student was enrolled in BUSD, was
eligible to receive special education, and began
receiving special education from BUSD.
BUSD is a member of the Mid-Cities SELPA
(IEP, ER 160, AR 190)2 and NLMUSD is a member
of the ABC/Norwalk-La Mirada SELPA (ISP, ER
186, AR 216). Both of these SELPAs are parties to
the Greater Los Angeles Area SELPAs Agreement
(“GLAAS Agreement”), as revised May 30, 2014
(GLAAS Agreement, ER 327, AR 357).
The GLAAS Agreement provided that
whenever a student who lives within the
boundaries of one school district (“District of
Residence” or “DOR”) (BUSD herein) attends a
private school within the boundaries of another
school district (“District of Location” or “DOL”)
(NLMUSD here), the DOL is responsible for
“Search and Serve” and for completing ''timely and
The Record On Appeal includes the Excerpts
of Record presented to the Ninth Circuit Court of
Appeals, which Excerpts will be cited by page
number as “([title], ER __).” Because this is an
appeal of an administrative matter, the sealed
Administrative Record will also be cited as “AR”
followed by the page number assigned by the
California Office of Administrative Hearings
(“OAH”) appearing at the top of the document.
Thus, the first page of the Administrative Record,
included in the Excerpts of Record, will be “([title],
ER __, AR 1).”
2

4

meaningful consultation” with local private school
(GLAAS Agreement, ER 327, AR 357).
The GLAAS Agreement provided: (1) that
DOL “completes assessment and determines
eligibility” and “holds an IEP meeting to determine
eligibility;” (2) “5. … If parent agrees to attend
public school, the [DOR] develops an IEP;” (3) “7. If
at any time, the parent indicates that they would
prefer to attend a public school, the DOR will be
contacted to hold an IEP and provide an offer of
FAPE;” (4) “8. If student continues to be a private
school student, district of location (DOL) will
conduct triennial to establish continuing eligibility.” (GLAAS Agreement, ER 328, AR 358).
B.

2014 IEP Team Meeting

Student’s parents received an English/
Spanish Parents’ Rights and Procedural Safeguards packet at the start of each IEP Team
meeting, including in June 2014 (Safeguards, ER
387, AR 417). The packet at “What are the rules
relating to my decision to unilaterally place
my child in a private school?” states:
The IDEA does not require an LEA to pay for
the cost of education, including special education
and related services, of your child with a disability
at a private school or facility if the LEA made a
FAPE available to your child and you choose to
place the child in a private school or facility.
However, the school district where the private
school is located must include your child in the
population whose needs are addressed under the

5

IDEA provisions regarding children who have been
placed by their parents in a private school under 34
C.F.R. Sections 300.131 through 300.144.
The reimbursement to a parent for placement of a child in a private school or agency may be
ordered by a Hearing officer or court when it is
determined that the LEA did not provide a FAPE to
the child in a timely manner prior to the
enrollment and that the private placement is
appropriate. Reimbursement may be reduced if, at
the most recent IEP team meeting prior to
removing the child from public school, the parent
failed to inform the LEA that they were rejecting
the proposed placement and of their intent to place
their child in a private school at public expense, or
if the parent failed to provide that information in
writing to the LEA at least 10 business days prior
of the removal of the child from public school.
(Safeguards, ER 400, AR 430) (Emphasis added).
On July 3, 2014, Parents consented in
writing, through their attorney, to a proposed IEP
(“Student’s 2013 IEP”) “in its entirety” that
provided Student with a free appropriate public
education (“FAPE”) (Letter dated July 3, 2014, ER
331, AR 361). Parents were represented by counsel,
Special Education Law Firm (“SELF”) throughout
the development and acceptance of this IEP (Letter
dated July 3, 2014, ER 331, AR 361)(Testimony of
Sandra Lua, ER 490, AR 721). The Student’s 2013
IEP Notes and the Goal progress reports show that
Student was making meaningful progress (IEP, ER
160, AR 190). Student’s 2013 IEP Team determined

6

the Least Restrictive Environment (“LRE”) for
Student to be at Student’s home school, BMHS, in
self-contained Specialized Academic Instruction
(“SAI”) consisting of RSP for Math and SDC for
English (IEP, ER 159, AR 191). The IEP Notes
were read aloud and accepted as read (IEP, ER 159,
AR 191). The full “Offer of FAPE – SERVICES”
was set forth on the IEP that was consented to by
Parents through their attorney. (IEP, ER 182-3,
AR 212-3).
On September 8, 2014, Parents’ attorney
notified BUSD that Parents had withdrawn
Student from BUSD and enrolled her at New
Harvest Christian School (“NHCS”), a private
parochial school located outside the boundaries of
BUSD but within NLMUSD’s boundaries, and
directed BUSD to cease contacting Parents about
Student’s attendance (Letter dated September 8,
2014, ER 333, AR 363). This withdrawal was
without prior notice to or consent by BUSD or
Student’s IEP Team (Testimony of Sandra Lua, ER
498-500, AR 729-731).
Parents never gave “any written notice [to
BUSD] that [they] were going to be coming back
and asking for an offer of FAPE.” (Testimony of
Sandra Lua, ER 499, AR 730).
Student continued to attend NHCS (Letter
dated August 10, 2015, ER 233, AR 263). Parents
consistently indicated that they intend for Student
to continue to remain enrolled at NHCS. Although
Parents later asserted that they withdrew Student
because they were concerned about Student’s

7

interactions with a 6th grade boy, Parents did not
share their concerns with Student’s IEP Team prior
to their withdrawal of Student (Testimony of
Sandra Lua, ER 490, AR 721) (Testimony of Sandra
Lua, ER 496, AR 727).
In October 2014, NLMUSD held an
Individual Service Plan (“ISP”) meeting per the
GLAAS Agreement, which was attended by Parent,
SELF, and others including BUSD (ISP, ER 187,
AR 217). BUSD informed Parents that BUSD
would provide services to Student if she enrolled in
a BUSD school. Parent did not indicate that she
preferred for Student to attend a public school.
The ISP states, “[NLMUSD] (LEA) will
provide the special education services(s) below for
the student while enrolled in private school …” The
ISP states, “Parent shared that there are no
concerns at this time. [Student] is doing well. She
has only 6 to 7 students in her class [at] New
Harvest. Parent shared that her grades are fine.”
(ISP, ER 186, AR 216). The ISP states, “By signing
this document, the parent/guardian(s) have
indicated to the District of Residence (DOR) that
they have chosen to unilaterally enroll or continue
to enroll the student in a private school without the
consent of, referral by, or at expense of the District.
It is further acknowledged that the DOR has
offered to develop an IEP when the Student’s
parent/guardian express an interest in enrolling
the student in public school. The parents
understand in accordance with IDEA 2004, their
rights to due process do not apply in the private

8

school setting.” (ISP, ER 186, AR 216) (emphasis
added).
Tracy McSparren, BUSD’s Superintendent,
testified at the OAH hearing that the offer of FAPE
to Student, through the IEP that was accepted in
July 2014, was never withdrawn and would be
available to Student when she was again enrolled
at BUSD. (Testimony of Tracy McSparren, ER 4634, AR 580-1).
In April 2015, Parent sent BUSD two letters,
one letter requesting documents and another letter
requesting an IEP, but they did not indicate that
they preferred Student to attend public school
(Letters dated April 23, 2015, ER 338-9, AR 36869).
BUSD timely responded to both letters by
providing the requested documents and referring
Parents to NLMUSD for special education services
per the GLAAS Agreement (Letter dated April 27,
2015, ER 158, AR 188) (Letter dated April 28, 2015,
ER 197, AR 227). BUSD informed Parents that if
they enrolled Student in BUSD, BUSD would
provide a parallel placement for Student based on
the provisions of Student’s IEP (to which they had
consented) and that “[w]ithin 30 days of [Student’s]
attending school in BUSD, BUSD will hold an IEP
so the IEP Team can determine what, if any,
changes to [Student’s] IEP may need to occur and
they will receive a new offer of FAPE from [BUSD]
based on the review and full consideration of
student records, along with input from staff from
[NHCS], NLMUSD, and [BUSD] staff who work

9

with [Student] during her first 30 days of
attendance in BUSD.” (Letter dated April 28, 2015,
ER 198, AR 228).
In May 2015, Parents sent BUSD another
letter admitting not providing any notice to BUSD
prior to withdrawing Student, and that “we will not
enroll [Student] back into the Bellflower USD
based on the provisions in her most recent IEP .…”
Parents admit in their letter, “[W]e should have
noted our withdrawal of our agreement to the last
IEP for [Student] and we should have provided the
District with the legally required 10 day notice of
our intent to place [Student] privately and that we
would seek reimbursement from the District for all
of the costs associated with that placement, of
course none of that happened.” (Letter dated May
12, 2015, ER 200, AR 230) (emphasis added).
Parents did not say they prefer Student to attend a
public school or agree to enroll Student in BUSD.
BUSD timely responded and noted that
Parents did not indicate how their placing Student
at this private parochial school, which provided
Student with no special education services, could
meet Student’s unique educational needs, much
less meet her needs better than implementing the
IEP. (Letter dated May 14, 2015, ER 201, AR 231).
In April 2016, Parents sent BUSD another
letter requesting a hypothetical offer of placement
for Student for the 2016-2017 school year. (Letter
dated April 8, 2016, ER 340, AR 370). Parents did
not say that they prefer for Student to attend a
public school or that they agree to enroll Student in

10

BUSD. BUSD timely responded that Student is
not currently enrolled in BUSD and setting out the
specific offer of FAPE once Student is enrolled in
BUSD and that they should contact NLMUSD for
the appropriate special education services while
Student is enrolled at NHCS. (Letter dated April
11, 2016, ER 211-2, AR 241-2).
In September 2016, Parents sent BUSD an
email admitting that “[Student] previously had an
IEP with the Bellflower Unified School District,
and it was only because the District flat out refused
to do anything about my daughter being bullied
and sexually harassed by another student that we
were forced to pull her out of the District and place
her in a private school for her 7th and 8th grade
years.” (Email dated September 6, 2016, ER 342,
AR 372)(emphasis added).
Parent testified that she withdrew Student
because of a problem with the sixth grade boy
(Testimony of Sandra Lua, ER 500, AR 731) and
that she never told the IEP Team. (Testimony of
Sandra Lua, ER 490, AR 721) Parents’ withdrawal
of Student had nothing to do with BUSD’s
provision of FAPE, but rather a different issue -not an issue raised in the OAH matter. BUSD
timely responded to Parents’ email in the same
manner as it had to Parents’ letter in May 2016.
(Letter dated September 14, 2016, ER 213, AR
243).

11

C.

CDE Compliance Matter.

In November 2016, Parents filed a complaint
with the California Department of Education
(“CDE”) falsely claiming that Parents removed
Student from BUSD’s placement and privately
placed her at NHCS because they disagreed with
BUSD’s offer of FAPE for the 2015-2016 school
year. (Letter dated November 18, 2016, ER 217, AR
247). This allegation was made even though
Parents’ admitted two months earlier that the only
reason for the withdrawal was the bullying (Email
dated September 6, 2016, ER 342, AR 372) – yet
they had not mentioned the bullying to the IEP
Team prior to the withdrawal. (Testimony of
Sandra Lua, ER 490, AR 721). Based upon this
complaint, CDE ordered BUSD to hold an IEP
Team Meeting, but did not direct BUSD to assess
Student or provide a FAPE for Student. (CDE
Investigation Report, ER 353, AR 383).
In February 2017, in compliance with the
CDE directive, BUSD held the meeting. (IEP dated
February 15, 2017, ER 226, AR 256). During the
discussion at the meeting as to placement,
Student’s Advocate Christopher Russell stated
“Parent is very comfortable with the current school
site since Parent’s concerns are noted and [Student]
knows how to access support.” (IEP dated February
15, 2017, ER 227, AR 257). BUSD shared a
proposed assessment plan, dependent upon
Student’s enrollment in BUSD. (IEP dated
February 15, 2017, ER 227, AR 257). Parents did
not agree to enroll Student in BUSD but signed the

12

assessment plan and gave it to BUSD at that
meeting. It was the impression of the Program
Administrator at the February 15, 2017 meeting
that Parents would not be enrolling Student with
BUSD. (Testimony of Marciela Harvin, ER 594-5,
AR 973-4). Parent initialed the IEP to show she
received a copy of the PRPS packet and a copy of
the IEP. (IEP dated February 15, 2017, ER 228, AR
258). Parents never consented to this proposed IEP
and never enrolled Student at BUSD.
On March 7, 2017, following the holding of
this meeting, CDE sent BUSD a letter confirming
that their “case is now closed” and that “The
District provided evidence an individualized
education program meeting has been convened for
the student.” (Letter dated March 7, 2017, ER 386,
AR 416).
On April 3, 2017, BUSD sent a letter to
NLMUSD stating that Student is still enrolled in
NHCS located in NLMUSD’s boundaries, and
reiterated NLMUSD’s duty to “Search and serve”
Student. (Letter dated April 3, 2017, ER 361-2, AR
391-2)(GLAAS Agreement, ER 327, AR 357).
D.

Due Process Matter.

On or about May 5, 2017, Parents filed a Due
Process Complaint (“DPC”) against BUSD. (Due
Process Complaint, ER 609, AR 1).
BUSD
answered the DPC. (Response to DPC, ER 597, AR
22). On September 26, 2017 (Transcript of hearing,
ER 426, AR 516) and September 27, 2017
(Transcript of hearing, ER 504, AR 798),

13

Administrative Law Judge (“ALJ”) Linda Johnson
heard the matter.
Tracy McSparren testified as to BUSD’s
understanding of the GLAAS Agreement as it
applied to Student’s situation and to BUSD’s
continuing offer of FAPE to Student (Testimony of
Tracy McSparren, ER 467-469, AR 667-9). She also
testified as to the reason BUSD did not hold an IEP
Team Meeting until 2017. (Testimony of Tracy
McSparren, ER 478-9, AR 678-9). It was Ms.
McSparren’s understanding that Parents want to
keep Student at NHCS and not enroll her in BUSD.
(Testimony of Tracy McSparren, ER 484, AR 684).
There has continued to be a very specific offer of
FAPE for Student (Testimony of Tracy McSparren,
ER 466-7, AR 686-7).
Parent testified at the hearing very clearly
and without hesitation that she desired for Student
to remain at NHCS even if Student were to be
provided the same services she believes her child
needs at public expense at a public school in BUSD.
(Testimony of Sandra Lua, ER 591-2, AR 931-2).
Parent’s testimony was consistent with her past
actions of never trying or agreeing to enroll Student
at a school in BUSD.
NHCS Principal Cathy Garcia also testified
at the hearing. (Testimony of Cathy Garcia, ER
512, AR 806). Ms. Garcia has no Education Degree,
no California Teaching Credential, no California
Administrative Credential, and no public school
teaching experience. (Testimony of Cathy Garcia,
ER 512, AR 806). None of the fifteen teachers at

14

NHCS (K-12) are California Credentialed.
(Testimony of Cathy Garcia, ER 513, AR 807).
Student was in a single combined classroom with
all of the high school students with 3 teachers and
2 aides. (Testimony of Cathy Garcia, ER 590, AR
884). Student was the only 10th grader and before
that, Student was the only 9th grader. (Testimony
of Cathy Garcia, ER 532, AR 826). In her 8th grade
class, there was only one other eighth grade
student. (Testimony of Cathy Garcia, ER 532, AR
826). In her 7th grade class, there were two other
seventh grade students. (Testimony of Cathy
Garcia, ER 532, AR 826).
NHCS uses the “Accelerated Christian
Education Curriculum K-12” and goes by the
acronym A.C.E. (Testimony of Cathy Garcia, ER
514, AR 808). According to www.aceministries.com/
curriculum, the “Accelerated Christian Education is
a Bible-based, Christian K-12 curriculum.” (NHCS
webpage printout, ER 386, AR 415). The “Core
Subjects include … Bible Reading (Levels 1-6)”
(NHCS webpage printout, ER 386, AR 415). The
website says, “The core curriculum provides
students with academics, skill building, reading
practice, character and wisdom training, and
knowledge of God and His Word.” (NHCS webpage
printout, ER 386, AR 415). “Each core subject
consists of 12 PACEs (Packet of Accelerated
Christian Education) per level.” (NHCS webpage
printout, ER 386, AR 415).
Ms. Garcia testified, “Bible is interspersed
throughout the curriculum” (Testimony of Cathy

15

Garcia, ER 551, AR 845) and provided an example
of when studying Lincoln, they would teach on
character as well, teaching about honesty and they
would review a Bible scripture about speaking
truth. (Testimony of Cathy Garcia, ER 551, AR
845) Student would then be tested on facts of
history and be required to recite the memory Bible
passage to pass the test on scripture and character.
(Testimony of Cathy Garcia, ER 551, AR 845). Ms.
Garcia testified, “they will interweave God’s Word
into the science lesson as well. So it is definitely a
core part of the curriculum.” (Testimony of Cathy
Garcia, ER 552, AR 846). Ms. Garcia testified that
Student will have to complete the Bible PACEs to
be able to graduate from NHCS. (Testimony of
Cathy Garcia, ER 571, AR 865).
Ms. Garcia also testified that NHCS
diplomas are “not accepted at Cal State or UC’s”
(Testimony of Cathy Garcia, ER 581, AR 875) so
students who receive only a NHCS diploma are
unable to gain acceptance at Cal State Universities
or the University of California schools upon
graduation from NHCS. Ms. Garcia testified that
the NHCS diploma would “not be an accredited
diploma.” (Testimony of Cathy Garcia, ER 574, AR
at 868).
Accrediting only comes in with the sister
program through Lighthouse Christian Academy in
Tennessee. (Testimony of Cathy Garcia, ER 580-1,
AR 874-875).
If Student gets accepted by
Lighthouse Christian Academy in Tennessee, she
can go into dual enrollment with Lighthouse

16

Christian Academy. Student can only get an
accredited High School Diploma through dual
enrollment. (Testimony of Cathy Garcia, ER 581,
AR 875).
Ms. Garcia testified that Student is not
presently “tied in” with Lighthouse Christian
Academy and NHCS does not have the
accreditation to issue her a California High School
Diploma. (Testimony of Cathy Garcia, ER 559, AR
853). Garcia testified that they are working to get
Student’s curriculum levels up. (Testimony of
Cathy Garcia, ER 559, AR 853) Student has not
been accepted yet by Lighthouse and they will not
know until end of sophomore year if she will be
eligible to dual enroll. (Testimony of Cathy Garcia,
ER 560, AR 854).
Ms. Garcia also testified that NHCS is not
equipped to deal with behavior problems and can’t
deal with emotional issues. (Testimony of Cathy
Garcia, ER 546, 563, AR 840, 857). NHCS provides
no special education services and has no special
education department. (Testimony of Cathy Garcia,
ER 515, AR 809).
E.

ALJ’s Decision

On November 20, 2017, following a two day
evidentiary hearing, the ALJ issued a ruling
(“ALJ’s Decision”) finding that BUSD was the
responsible LEA for providing IEP’s and
assessments. The ALJ ordered BUSD to reimburse
Parents for regular school year tuition and
mandatory expenses that Parents incurred as a

17

result their unilateral private parochial placement
of Student and for expenses related to one round
trip transportation per attendance day. The ALJ
further ordered BUSD to provide certain
Independent Educational Evaluations (“IEEs”).
F.

District Court Appeal

Pursuant to 20 U.S.C. § 1415, BUSD timely
appealed the ALJ’s Decision to the U.S. District
Court and Parents counter-claimed for immediate
enforcement of the ALJ’s Decision and for
attorneys’ fees and costs, and BUSD timely
answered the counterclaim. On July 8, 2019, the
District Court entered a Judgment affirming the
ALJ’s Decision (Judgment, ER 1)(Appendix C at A9).
G.

Ninth Circuit Appeal

On August 5, 2019, BUSD timely appealed
the District Court’s Judgment. (Notice of Appeal,
ER 20) On October 26, 2020, the Ninth Circuit
Court of Appeals affirmed the District Court’s
Judgment. (Appendix A at A-1.) BUSD filed a
timely petition for rehearing en banc. On December
2, 2020, the Ninth Circuit Court of Appeals denied
the petition for rehearing en banc. (Appendix B at
A-7.)

18

REASONS FOR GRANTING THIS PETITION
This Court’s intervention is necessary to
correct a prejudicial error made by the Ninth
Circuit Court of Appeals and to provide the much
needed guidance as to the respective responsibilities of the District of Residence (“DOR”) and
District of Location (“DOL”) in providing reassessments and special education services. This Court’s
intervention is also necessary to correct a
prejudicial error made by the Ninth Circuit Court
of Appeals and to provide much needed guidance as
to the reimbursement of tuition and fees in a
unilateral private placement where there was no
prior notice given and the private school provides
no education services.
Because Parents unilaterally and without
prior notice withdrew Student and placed her in a
private parochial school outside of BUSD’s
geographical boundaries, and because Parents have
not indicated that they would prefer for Student to
attend school within BUSD, BUSD is not the
correct LEA responsible for providing an IEP or
assessments to Student. BUSD should not be
required to reimburse the tuition and costs for this
private parochial school that does not provide
special education services to Student.

19

A.

The
Ninth
Circuit
Improperly
Determined That BUSD Was the Local
Educational Agency Responsible For
Reassessments and Providing Special
Education to Student.

In its Memorandum, the Ninth Circuit held
that “The district court properly affirmed the ALJ’s
determination that BUSD denied K.L. a FAPE” and
pointed to the authorities of: (1) Assistance to
States for the Education of Children with
Disabilities and Preschool Grants for Children with
Disabilities, 71 Fed. Reg. 46,540, 46,592 (Aug. 14,
2006), and (2) J.W. ex rel. J.E.W. v. Fresno Unified
Sch. Dist. (9th Cir. 2010) 626 F.3d 431, 460. (See,
Appendix A at A-3.) Neither of these authorities
support the holding.
First, nowhere in 71 Fed. Reg. 46,592 (See,
Appendix F at A-105-106) does the regulation
“specifically contemplate that, upon a parent’s
request, a school district must evaluate a child
residing in its district for purposes of making a
FAPE available to her, even if she is enrolled in a
private school in another district.” To the contrary,
71 Fed. Reg. 46,590 (See Appendix F at A-103-104)
states: “The revisions to the Act in 2004
significantly changed the obligation of States and
LEAs to children with disabilities enrolled by their
parents in private elementary schools and
secondary schools. Section 612(a)(10)(A) of the Act
now requires LEAs in which the private schools are
located, rather than the LEAs in which the parents
of such children reside, to conduct child find and

20

provide equitable services to parentally-placed
private school children with disabilities.” 71 Fed.
Reg. 46,590. This is a direct statement that the
DOR is not responsible for the child find activities –
it is the DOL that is responsible. This is directly
contrary to the Ninth Circuit’s holding that the
DOR is responsible for child find activities.
Second, the court incorrectly asserts that
J.W., supra, 626 F.3d at 460, supports the
conclusion that BUSD denied K.L. a FAPE in this
situation. (See, Appendix F at A-3-4). In J.W., the
Ninth Circuit adopted the district court’s decision
verbatim, setting it out in an appendix, which
decision found that the school district had in fact
made a formal offer, albeit late, but this tardiness
was harmless error. Id. The J.W. decision did not
discuss the effect of the unilateral placement being
out of state, as the issue did not arise. This case
does not support the Ninth Circuit’s conclusion that
BUSD denied a FAPE to K.L. in this case.
The Ninth Circuit, in its Memorandum,
concedes that the DOL might have obligations, but
incorrectly asserts that “these obligations do not
absolve the district of residence of its responsibilities under the IDEA. [citing J.W.]” (See,
Appendix A at A-4). This assertion is incorrect, as
set out in 71 Fed. Reg. 46,590, which states that
“Section 612(a)(10)(A) of the Act now requires LEAs
in which the private schools are located, rather
than the LEAs in which the parents of such
children reside, to conduct child find and provide
equitable services to parentally-placed private

21

school children with disabilities.” (71 Fed. Reg.
46,590 (Emphasis added).)(See, Appendix F at A104.)
The District of Location (DOL) is the LEA for
students enrolled in private schools. “Child find” for
students enrolled by their parents in private school
is the responsibility of the district in which the
private school is located. (34 C.F.R. § 300.131, 71
Fed. Reg. 46590, Ed. Code, § 56171.)
This statement of the law is mirrored by the
GLAAS Agreement (GLAAS Agreement, ER 327,
AR 357). This child find responsibility extends to
reassessments. (71 Fed. Reg. 46593.)(See, Appendix
F at A-106.) The purpose of this child find activity
is to ensure the equitable participation of
parentally placed private school children in services
that a school district may provide to children who
attend private school in the district, as well as an
accurate count of those children. (Office of Special
Education Programs (OSEP), Letter to Eig,
January 28, 2009, 52 IDELR 136.)
Education Code section 56171 provides:
Pursuant to Section 300.131 of
Title 34 of the Code of Federal
Regulations,
local
educational
agencies shall locate, identify, and
assess all private school children with
disabilities,
including
religiously
affiliated school age children, who
have disabilities and are in need of
special education and related services

22

attending private school in the service
area of the local educational agencies
where the private school is located in
accordance with Section 56301. The
activities undertaken to carry out this
responsibility for private school
children with disabilities shall be
comparable to activities undertaken in
accordance with Section 1412(a)(10)
(A)(ii) of Title 20 of the United States
Code.
(Ed. Code, § 56171 (emphasis added).)
(Appendix F at A-111.)
34 C.F.R. § 300.131(a) provides that “[e]ach
LEA must locate, identify, and evaluate all children
with disabilities who are enrolled by their parents
in private, including religious,
elementary
schools and secondary schools located in the
school district served by the LEA, in accordance
with paragraphs (b) through (e) of this section, and
§§ 300.111 and 300.201.” (34 C.F.R. § 300.131(a)
(emphasis added).)(Appendix F at A-98.) The DOL
must provide child find for the students enrolled in
private schools located in their district -- even if the
student resides in a different state. (34 C.F.R.
§ 300.131(f).)(Appendix F at A-99.)
BUSD stopped being the LEA for Student in
September 2014 when Parent (without any prior
notice or warning) withdrew Student from BUSD
and unilaterally placed Student at NHCS, a private
parochial school located in the service area for
NLMUSD. BUSD repeatedly notified Parent that

23

NLMUSD was the LEA responsible for administering Student’s special education and that Parent
should look to NLMUSD for assessments and
services. BUSD has not resumed being the LEA at
any time since Parent’s withdrew Student.
Parents’ correspondence in 2015 and 2016
show that Parent intended that Student would
continue her enrollment at her private school.
Where the parent expresses an intention to keep
the Student enrolled in the private school, the DOR
has no obligation to make FAPE available to the
child. (71 Fed. Reg. 46,593.)(Appendix F at A-108.)
The Ninth Circuit, in its Memorandum,
stated: “BUSD contends that it offered K.L. an IEP
in 2014 and that it was not required to further
update her IEP because K.L.’s parents made clear
that they did not intend to re-enroll K.L. at BUSD.
These arguments are not supported by the IDEA or
by the record.” (Appendix A at A-4-5.) The Ninth
Circuit Memorandum also states: “[T]he record
does not support BUSD’s contention that K.L.’s
parents expressed a clear intent to keep K.L.
enrolled at New Harvest. In fact, K.L.’s parents’
letters to BUSD in 2015 and 2016 indicate they
were still interested in a public-school placement
for K.L., and BUSD was required to provide an
offer of FAPE.” (Appendix A at A-5.)
This is a misstatement of BUSD’s contention
and the record on appeal. Parents consented to
this IEP and there was no showing that this IEP
denied FAPE to Student. The record on appeal
shows that Parents consented to this IEP in July

24

2014 and then withdrew Student in September
2014. The record also shows that Parents
repeatedly told BUSD that they were happy with
Student’s placement at NHCS and intended to keep
her at NHCS. The Ninth Circuit ignored these
facts presented to it in the record on appeal.
The requirements of an LEA listed in 34
C.F.R. § 300.131 et seq. and Education Code section
56171 et seq. apply only to NLMUSD as it is the
DOL rather than BUSD. Because Student was not
enrolled in BUSD from September 2014 to present,
BUSD has had no duty to hold an IEP Team
Meeting in 2015, 2016 or 2017, to provide any
services to Student, and has had no duty to conduct
triennial assessments or any assessments.
Therefore, BUSD did not deny FAPE to Student
relating to requests for IEP team meetings in 2015
and 2016 (Issue #1), Student’s triennial assessment
(Issue #2), and assessments in all areas of
suspected disability (Issue #3). The ALJ
erroneously found that BUSD had an obligation to
assess Student.
This is plain prejudicial error, as the
evidence showed that Parents never indicated their
preference or willingness to enroll Student in
BUSD. Under the GLAAS Agreement at paragraph
8, “If student continues to be a private school
student, district of location (DOL) [here, NLMUSD
– not BUSD] will conduct triennial [assessments] to
establish
continuing
eligibility.”
(GLAAS
Agreement, ER 328, AR 358).
This GLAAS
Agreement requirement under Paragraph 8

25

comports with the respective duties of the DOL
[NLMUSD] and DOR [BUSD] under 34 C.F.R.
§ 300.131(a).
The ALJ committed a serious,
prejudicial error by failing to apply the legal
standard and erroneously found that BUSD had
the duty to hold an IEP team meeting and to assess
Student.
This legal error should have been
corrected by the reversal of the ALJ’s Decision,
either by the district court or by the Ninth Circuit
Court of Appeals.
B.

The Ninth Circuit Improperly Affirmed
the Remedy of Reimbursement For The
Cost
of
This
Unilateral
Private
Placement.

In its Memorandum, the Ninth Circuit held
that “Further, the district court properly affirmed
the ALJ’s award of reimbursement for K.L.’s
private-school tuition for the 2015–2016 and 2016–
2017 school years.” (Appendix A at A-4.)
Although the Ninth Circuit correctly states
the standard for allowing reimbursement of
unilateral private placements, it disregarded that
standard in applying it to this situation. The Ninth
Circuit correctly states: “Parents may receive
reimbursement for the unilateral placement of a
child in a private school if the LEA did not make a
FAPE available to the child in a timely manner
prior to that enrollment and the private placement
is appropriate. See 34 C.F.R. § 300.148(c).”
(Memorandum, Appendix A at A-4.)(Emphasis
added.)

26

The timing of the FAPE denial and the
enrollment at the private school is critically
important. The appropriateness of the unilateral
placement is also critically important. The Ninth
Circuit erred as to both of these factors.
1.

There Was No Denial of FAPE
Prior to the Unilateral Private
Placement.

The
Ninth
Circuit
disregards
the
requirement in the C.F.R. section that it quoted, 34
C.F.R. § 300.148(c), that the denial of FAPE must
precede the enrollment in the private placement.
Here, the enrollment occurred in September 2014 -before there was any asserted denial of FAPE. The
2014 IEP did not deny FAPE to Student. The ALJ
found that the denial of FAPE occurred after the
September 2014 enrollment. The ALJ, district
court, and Ninth Circuit disregarded this critically
important timing requirement.
Parents withdrew Student without prior
notice and without giving any reason and
unilaterally placed her at a private school outside
of BUSD’s jurisdiction at a time when they had
agreed to the Student’s 2013 IEP. Parent admitted
that they withdrew Student because of a problem
with another student. The withdrawal was not
because BUSD denied Student a FAPE.
The
Student’s 2013 IEP would have provided FAPE –
Parents consented to it “in its entirety.”
Given the choice to enroll in BUSD or stay at
NHCS, Parents unequivocally continue to choose

27

for Student to stay at NHCS – no matter what –
because “she is happy.” Parent Mom testified
repeatedly that she would prefer Student to stay at
NHCS. (Testimony of Sandra Lua, ER 591-2, AR
931-2).
BUSD continued to offer to provide FAPE to
Student and when Student enrolled in the BUSD,
BUSD would use Student’s 2013 IEP as a parallel
placement until the initial IEP Team Meeting could
be held. Parents did not prove that BUSD failed to
provide Student with FAPE relating to requests for
IEP team meetings in 2015 and 2016 (Issue #1),
Student’s triennial assessment (Issue #2), and
assessments in all areas of suspected disability
(Issue #3).
The Ninth Circuit stated: “K.L.’s 2014 IEP
was not a permissible placeholder, as her 2014 IEP
would not address her ‘present levels of academic
achievement and functional performance’ as they
existed in 2015 or 2016. Id. § 1414(d)(1)(A)(i)(I).”
(Appendix A at A-5.) The Ninth Circuit misunderstood the argument being made. BUSD was
not contending that the 2013 IEP is a once for all
IEP, but rather that BUSD would start with this
IEP as a parallel placement, as it is required for all
incoming students who are already on an IEP, and
immediately modify it to address the present levels
of performance.
BUSD should not be forced to reimburse
Parents for education services provided by NHCS
where FAPE was made available to Student yet
Parents unilaterally withdrew Student. Education

28

Code section 56174 provides, “The local educational
agency shall not be required to pay for the cost of
education, including special education and related
services, of a child with a disability at a private
school or facility if the local educational agency
made a free appropriate public education available
to the child and the parent of the child elected to
place the child in the private school or facility.” (Ed.
Code, § 56174.)
Student’s 2013 IEP provided FAPE to
Student. Parents failed to prove that Student’s IEP
they consented to would not have met Student’s
special educational needs. A FAPE in BUSD
remains available to Student, but Student is not
enrolled in BUSD. BUSD never withdrew its offer
of FAPE it made in the last agreed to IEP. BUSD
has repeatedly offered that if Student enrolls in
BUSD, BUSD will provide a FAPE by initially
providing an interim IEP based on the last agreed
to IEP and then by assessing, observing, collecting
records and performance data, etc. BUSD would
then hold an IEP to amend Student’s placement,
goals, services, and supports within 30 days of
Student’s attendance in BUSD.
The ALJ committed prejudicial error in
finding that there was a denial of FAPE in this case
where Parents never proved that the 2013 IEP
would not provide FAPE to Student. The district
court and Ninth Circuit failed to correct this error.
The Ninth Circuit, in its Memorandum, also
stated:

29

Finally, under California law,
an ALJ may reduce or deny a
reimbursement award where the
parent did not give written notice to
the LEA at least ten days prior to the
removal of the child from public
school. Cal. Educ. Code § 56176. Here,
although K.L.’s parents’ failed to
provide ten days’ notice before
withdrawing K.L. from BUSD in 2014,
BUSD fails to make any argument as
to why the ALJ was required to use
her discretion to reduce the reimbursement award for K.L.’s private
school tuition. In any event, K.L.’s
parents notified BUSD of K.L.’s
placement at New Harvest and their
intent to seek reimbursement in May
2015, and the ALJ awarded reimbursement for the 2015 and 2016
school years, well after BUSD had
notice of K.L.’s withdrawal.
(Appendix A at A-6)
This requirement of giving prior notice is
related to the requirement of a finding of denial of
FAPE prior to the enrollment. They both deal with
fair notice to the school district and an opportunity
to address a problem before the students are
merely withdrawn from the school district.
Education Code Section 56176 provides that the
reimbursement may be denied if: (a) Parent did not
inform the IEP team prior to the removal of the

30

“concerns” and the intent to remove the student; or
(b) Parent did not give prior written notice of the
intent to remove the student ten days prior to the
removal. (See, Ed. Code, § 56176.) Parents here
did neither of these.
Parents consented to the IEP on July 3,
2014. On September 8, 2014, Parents through their
counsel notified BUSD of the withdrawal after the
withdrawal had already happened. Parent notices
provided in 2015, 2016, and 2017 were not about
their intention to remove Student -- Student was
not enrolled in any school located in BUSD after
her withdrawal. Parents’ correspondence were
notices demanding reimbursement because they
had Student at the private school. Parents have
been unreasonable at all times herein. They
withdrew Student and have indicated multiple
times including in February 2017 and during the
OAH hearing that they would not consent to any
placement at BUSD because they wanted Student
to stay at NHCS.
Since Student’s withdrawal in 2014, Parents
never enrolled Student in BUSD. Despite asking
for IEPs and public offers of FAPE, they never
agreed to enroll Student in a school in BUSD.
Had Parents notified BUSD that there was a
problem with bullying, it is very likely that the
situation could have been addressed and Parents
would have kept Student enrolled at BUSD. This
argument has been made, and continues to be
made, including in this Petition for Review.

31

2.

The Private Placement Was Not
“Appropriate.”

The Ninth Circuit correctly stated the
standard for “appropriate placement” for the
unilateral private placement:
The parent “need not show that
a private placement furnishes every
special service necessary to maximize
their child’s potential,” but rather
“need only demonstrate that the
placement
provides
educational
instruction specially designed to meet
the unique needs of a handicapped
child.” C.B. ex rel. Baquerizo v. Garden
Grove Unified Sch. Dist. (9th Cir.
2011) 635 F.3d 1155, 1159.
(Appendix A at A-4)(emphasis added.)
The Ninth Circuit stated but then
disregarded this requirement that the private
school provide “educational instruction specially
designed to meet the unique needs of a handicapped child.” Instead, the Ninth Circuit erroneous
found the private placement “appropriate,” stating:
“Further, the ALJ properly determined that K.L.’s
placement was appropriate because New Harvest
provided K.L. with diagnostic tests upon
enrollment to assess her academic proficiency and
needs and provided K.L. with one-on-one tutoring
assistance and extra help from her teachers.”
(Appendix A at A-5).

32

The “diagnostic tests” are not “educational
instruction.”
These
diagnostic
tests
are
assessments – not instruction. The “one-to-one
tutoring assistance and extra help from her
teachers” is not “specially designed to meet the
unique needs of a handicapped child.”
This
tutoring and extra help are general education
assistance – what every student needs and
received. This is not specially designed to meet the
unique needs of a handicapped child.” This private
placement was not appropriate.
The NHCS placement was shown by the
record to be not appropriate, for the following
reasons: (1) NHCS does not provide any special
education services. (Letter of February 23, 2015,
ER 190, AR 220); (2) There are no California
Credentialed educators at NHCS. Principal Garcia
and the teachers at NHCS have no California
Education Credentials; (3) NHCS Student records
do not provide objective criteria to determine
Student’s levels of performance; (4) Student cannot
obtain an accredited California High School
Diploma from NHCS; Principal Garcia testified
that Student is in 10th grade, but she is not yet
working in a program that will enable her to earn a
California accredited high school diploma; NHCS is
not accredited to provide a California High School
diploma; and (5) NHCS is a religious school and its
Bible based curriculum interweaves Bible studies
across all subjects.
BUSD should not be compelled to reimburse
for education services provided by NHCS where

33

NHCS’s teaching methods and curriculum are
entirely Bible based.
Education Code section
56172, subdivision (f) requires that “Special
education and related services, including materials
and equipment, provided to a pupil with a
disability who has been parentally placed in a
private school shall be secular, neutral, and
nonideological, as required by Section 1412(a)(10)
(A)(vi) of Title 20 of the United States Code and
Section 300.138(c)(2) of Title 34 of the Code of
Federal Regulations.” (Ed. Code, § 56172, subd. (f).)
The required reimbursement for this private
placement violates the Establishment Clause of the
Constitution, in that it is a forced payment that the
State of California is compelling BUSD to make for
the tuition and costs of a student attending a
private parochial school at which the Bible is
interwoven into its curriculum and its study is
required of all students for graduation. This forced
payment supports NHCS which has a non-secular
purpose in teaching students biblical principles in
every class taught at the school. This forced
payment has a primary effect of advancing the
Christian religion as taught by NHCS. This forced
payment is also an excessive entanglement
between the State of California and NHCS with its
interweaving of the Bible in its curriculum. (See,
Lemon v. Kurtzman (1971) 403 U.S. 602, 612-13, 91
S.Ct. 2105, 29 L.Ed.2d 745.) If any of the prongs of
the “Lemon test” is not met, the government action
violates the First Amendment. (Edwards v.
Aguillard (1987) 482 U.S. 578, 583, 107 S.Ct. 2573,
96 L.Ed.2d 510.)

34

The NHCS Bible-based ACE Ministries
individualized curriculum includes testing on
memorization and recitation of Bible verses and
Biblical studies interwoven throughout all subjects.
NHCS’s curriculum and teaching methods are not
secular, neutral, and non-ideological. Courts are
admonished to be “particularly vigilant in
monitoring compliance with the Establishment
Clause in elementary and secondary schools.”
(Edwards, supra, 482 U.S. at 583-84.) Compelling
BUSD to reimburse for this private placement.
The Ninth Circuit, in its Memorandum
stated: “The fact that New Harvest is a parochial
school does not change this analysis.” (Appendix A
at A-5). BUSD is not asserting that placement at a
parochial school is per se inappropriate. BUSD has
asserted, and continues to assert, that this specific
placement at NHCS is not appropriate where its
Bible based curriculum interweaves Bible studies
across all subjects.
The Ninth Circuit, in C.B., supra, 635 F.3d
at 1159 (quoting Florence County School District
Four v. Carter (1993) 510 U.S. 7, 114 S.Ct. 361, 126
L. Ed 2d 284, 15-16) stated:
In Florence County School
District Four v. Carter, 510 U.S. 7
(1993), the
Supreme
Court
set
minimum criteria that must be met
before a guardian may obtain
reimbursement for the unilateral
placement of a child in a private
school. A parent or guardian is

35

“entitled to reimbursement only if a
federal court concludes both (1) that
the public placement violated the
IDEA, and (2) that the private school
placement was proper under the
[IDEA].”[County of San Diego v. Cal.
Special Educ. Hearing Office (9th Cir.
1996) 93 F.3d 1458, 1466] (citing
Carter). If either criterion is not met,
the parent or guardian may not obtain
reimbursement. Id. If both criteria are
satisfied, the district court then must
exercise its “broad discretion” and
weigh “equitable considerations” to
determine whether, and how much,
reimbursement is appropriate. Carter
(internal quotation marks omitted).
(C.B., supra, 635 F.3d at 1159.)
In the C.B. case, the ALJ found that it was
“undisputed” that the public school’s placement
violated the IDEA (unlike here where there was no
showing that BUSD’s proposed placement was a
violation of the IDEA). (C.B., 635 F.3d at 1158-59.)
C.B.’s guardian had timely objected to the proposed
placement (unlike here where Parents had
consented to the IEP) and the guardian gave prior
notification that she would be obtaining
supplemental services and seeking reimbursement
(unlike here where Parents failed to give prior
notice). (Id.) In C.B., the ALJ found, that the
Reading and Language Center (the “Center”)
provided most but not all of the individualized

36

services needed (it lacked only arithmetic). (C.B.,
635 F.3d at 1158 and 1160.) That is far different
from the situation here in which the NHCS
provides no special education services at all and is
an
impermissible
non-secular
school
that
interweaves the Bible into its core curriculum. In
the follow-up case decided in 2016, the same
parties (C.B. and Garden Grove Unified) came
before the Ninth Circuit and this time the school
district prevailed due to the guardian’s actions
when she “thwarted” the school district’s efforts “by
being uncooperative” and her failure to show a
violation of the IDEA by the school district. (See,
Baquerizo v. Garden Grove Unified Sch. Dist. (9th
Cir. 2016) 826 F.3d 1179.)
The First Circuit Court of Appeals, in
Amann v. Stow Sch. Sys. (1st Cir. 1992) 982 F.2d
644, ruled in favor of the school district (Town of
Stow, MA) where the parents withdrew their child
without consent and unilaterally placed the child
with a private school in a different school district
(Lincoln, MA), and stated:
First, the Amanns say that
Stow [DOR] ignored its statutory duty
to “prepare” an IEP for Christopher
between September 1987 and January
1989. Stow had last reviewed
Christopher's IEP in December 1986,
and the IDEA requires responsible
educational agencies to re-examine
IEPs at least annually. 20 U.S.C.
§ 1414(a)(5). However, federal regula-

37

tions promulgated under the IDEA
also say that public officials need
“develop[] and implement[]” an IEP for
a child in private school only if the
child was “placed in or referred to
[the] private school or facility by a
public agency.” 34 C.F.R. § 300.341(b)3
(emphasis added).
By December 1987, when the
1986 IEP would have come up for its
annual review, Christopher had
enrolled at Carroll School [a private
school in DOL]. He was not placed
there by a public agency; his parents
enrolled him unilaterally, without
challenging the IEP or obtaining
Stow's consent to the transfer.
According to regulation, their action
relieved the Town of its responsibility
to “develop and implement” an IEP for
Christopher; and if Stow was not
required to create an IEP for
Christopher, then it follows that the
Town had no obligation to review or
revise the IEP already in place.[4]
N.4: Our decision in [Burlington
v. Department of Education (1st
Cir.1984) 736 F.2d 773] is not to the
contrary. There, the parents placed
34 C.F.R. § 300.341 was superseded and
replaced by 34 C.F.R. § 300.146.
3

38

their child in a private school, but they
also invoked their right to an
impartial due process hearing on the
adequacy of the Town's IEP. We said
“that pending review of an earlier IEP,
local educational agencies should
continue to review and revise IEPs, in
accordance with applicable law.” 736
F.2d at 794. The review process may
take several years, and “[w]ithout an
IEP as a starting point, the court
[would be] faced with a mere
hypothesis of what the Town would
have proposed and effectuated during
the subsequent years.” Id. The
pendency of review, not the placement
in private school, creates the need to
maintain and update the IEP. Because
the Amanns did not complain formally
about the IEP, or invoke their right to
a BSEA hearing concerning its
adequacy, there was no administrative
or judicial review pending between
September 1987 and January 1989,
and hence no obligation to review and
revise.
(Amann, supra, 982 F.2d at 651.)
The Fourth Circuit Court of Appeals, in
MM ex rel. DM v. Sch. Dist. of Greenville Cnty. (4th
Cir. 2002) 303 F.3d 523, stated:
A school district is only required
to continue developing IEPs for a

39

disabled child no longer attending its
schools when a prior year's IEP for the
child is under administrative or
judicial review. See Amann v. Stow
Sch. Sys., 982 F.2d 644, 651 n. 4 (1st
Cir.1992); Burlington, 736 F.2d at 794.
Even if a prior year's IEP is contested
and the school district fails to
develop subsequent-year IEPs, “the
losing party in the dispute over the
contested IEP ... will have the burden
of producing evidence and persuading
the court of changed circumstances that render the district court's
determination as to the initial year
inappropriate for guiding its order of
relief for subsequent years.” Andersen
v. Dist. of Columbia, 877 F.2d 1018,
1022 (D.C. Cir. 1989) (quoting
Burlington, 736 F.2d at 795)
(emphasis in original).
In this case, the parents
withdrew MM from the District's
schools in 1996, but they did not
request a due process hearing as
to any IEP until March of 1998. The
District was therefore under no
continuing obligation in 1997 to
develop an IEP for MM. Even if the
District had been so obliged, the
Parents have made no showing of
changed circumstances. Because the
District was not obliged to develop an

40

IEP for MM for the 1997-98 school
year, we will affirm, on this alternate
ground, the award of summary
judgment to the District on the 199798 IEP.
(MM, supra, F.3d 523 at 536-7.)
The Ninth Circuit erred by disregarding the
standard for reimbursement of unilateral private
placements that it had set forth in its
Memorandum, that “Parents may receive reimbursement for the unilateral placement of a child in
a private school if the LEA did not make a FAPE
available to the child in a timely manner prior to
that enrollment and the private placement is
appropriate. See 34 C.F.R. § 300.148(c).”
(Memorandum, Appendix A at A-4.)(Emphasis
added.)
The Supreme Court should grant review of
the Ninth Circuit’s decision to correct this
prejudicial error as to the reimbursement for this
unilateral private placement.

41

CONCLUSION AND PRAYER
FOR RELIEF
The Courts of Appeal need guidance about
the relative responsibilities of the school districts
where a student resides in one district but is
unilaterally parentally placed in a private school
located within the geographical boundaries of a
different school district and the requirements for
reimbursement for that unilateral parental private
placement.
This Court should grant certiorari to review
the Ninth Circuit’s judgment.
DATED: April 29, 2021
Respectfully submitted,
LAW OFFICES OF ERIC BATHEN

RICHARD D. BRADY
Counsel of Record
ERIC J. BATHEN
Counsel for Petitioner
BELLFLOWER UNIFIED SCHOOL
DISTRICT

42

APPENDIX

A-1
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
OCT 26 2020
Molly C. Dwyer, Clerk
U.S. Court of Appeals
No. 19-55912
D.C. No. 2:18-cv-00043-FMO-FFM
MEMORANDUM*
BELLFLOWER UNIFIED SCHOOL
DISTRICT,
Plaintiff-counterdefendant-Appellant,
v.
FERNANDO LUA, individually and
on behalf of minor K.L.,
Defendant-Appellee,
SANDRA LUA, individually and on
behalf of minor K.L.,
Defendant-counterclaimant-Appellee.
*

This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit
Rule 36-3.

A-2
Appeal from the United States District Court
for the Central District of California
Fernando M. Olguin, District Judge, Presiding
Argued and Submitted October 15, 2020
Pasadena, California
Before:

MURGUIA and OWENS, Circuit Judges,
and SETTLE,** District Judge.

Bellflower Unified School District (“BUSD”)
appeals the district court’s affirmance of an
Administrative Law Judge’s (“ALJ”) determination
that BUSD violated the Individuals with
Disabilities Education Act (“IDEA”) by failing to
make a free appropriate public education (“FAPE”)
available to K.L., a minor who resided in the school
district. BUSD also challenges the ALJ’s decision
ordering reimbursement to K.L. and her parents for
the cost of sending K.L. to New Harvest Christian
School (“New Harvest”), a private parochial school
located within another school district’s geographical
boundaries. Because the parties are familiar with
the facts, we do not recite them here. We have
jurisdiction under 28 U.S.C. § 1291, and we affirm.
The IDEA was enacted in 1975 to “ensure
that all children with disabilities have available to
them a free appropriate public education.” 20
**

The Honorable Benjamin H. Settle, United States
District Judge for the Western District of Washington,
sitting by designation.

A-3
U.S.C. § 1400(d)(1)(A). The IDEA requires that a
local
educational
agency
(“LEA”)
conduct
evaluations to determine whether a student is a
“child with a disability,” id. § 1414(a), and develop,
in conjunction with the child’s parents and
teachers, an individualized education plan (“IEP”)
for each child with a disability, id. § 1414(d). A
parent may bring a complaint about “any matter
relating to” the child’s evaluation and educational
placement and is entitled to an administrative due
process hearing on the complaint. Id. §§ 1415(b)(6),
(f), (g)(2).
The district court properly affirmed the
ALJ’s determination that BUSD denied K.L. a
FAPE. The Department of Education’s regulations
implementing the IDEA specifically contemplate
that, upon a parent’s request, a school district must
evaluate a child residing in its district for purposes
of making a FAPE available to her, even if she is
enrolled in a private school in another district. See
Assistance to States for the Education of Children
with Disabilities and Preschool Grants for Children
with Disabilities, 71 Fed. Reg. 46,540, 46,592 (Aug.
14, 2006). Even where a parent has informed the
district of residence that the child has been placed
at a private school outside the state, this Court has
held that the district is still required to make a
formal written offer of placement for a child with a
disability. See J.W. ex rel. J.E.W. v. Fresno Unified
Sch. Dist., 626 F.3d 431, 460 (9th Cir. 2010).
Therefore, as K.L.’s district of residence, BUSD was

A-4
the LEA responsible for conducting assessments
and providing special education services for K.L.
See 71 Fed. Reg. at 46,592. Although a child’s
unilateral placement in a private school outside the
district might trigger obligations for the “district of
location,” including “child find” responsibilities
under 34 C.F.R. § 300.131(a), these obligations do
not absolve the district of residence of its
responsibilities under the IDEA. J.W., 626 F.3d at
460.
Further, the district court properly affirmed
the ALJ’s award of reimbursement for K.L.’s
private-school tuition for the 2015–2016 and
2016–2017 school years. Parents may receive
reimbursement for the unilateral placement of a
child in a private school if the LEA did not make a
FAPE available to the child in a timely manner
prior to that enrollment and the private placement
is appropriate. See 34 C.F.R. § 300.148(c). The
parent “need not show that a private placement
furnishes every special service necessary to
maximize their child’s potential,” but rather “need
only demonstrate that the placement provides
educational instruction specially designed to meet
the unique needs of a handicapped child.” C.B. ex
rel. Baquerizo v. Garden Grove Unified Sch. Dist.,
635 F.3d 1155, 1159 (9th Cir. 2011).
BUSD contends that it offered K.L. an IEP in
2014 and that it was not required to further update
her IEP because K.L.’s parents made clear that
they did not intend to re-enroll K.L. at BUSD.

A-5
These arguments are not supported by the IDEA or
by the record. An LEA must ensure that a child’s
IEP is reviewed annually and revised as
appropriate. 20 U.S.C. § 1414(d)(4)(A). As the LEA
responsible for offering K.L. a FAPE, BUSD
violated the IDEA by refusing to convene an IEP
meeting in 2015 and 2016 despite multiple requests
from K.L.’s parents. K.L.’s 2014 IEP was not a
permissible placeholder, as her 2014 IEP would not
address her “present levels of academic achievement and functional performance” as they existed
in 2015 or 2016. Id. § 1414(d)(1)(A)(i)(I). While “the
LEA where the child resides need not make FAPE
available to the child” if “the parent makes clear his
or her intention to keep the child enrolled in the
private elementary school or secondary school
located in another LEA,” see 71 Fed. Reg. at 46,593,
the record does not support BUSD’s contention that
K.L.’s parents expressed a clear intent to keep K.L.
enrolled at New Harvest. In fact, K.L.’s parents’
letters to BUSD in 2015 and 2016 indicate they
were still interested in a public-school placement
for K.L., and BUSD was required to provide an
offer of FAPE. BUSD failed to do so.
Further, the ALJ properly determined that
K.L.’s placement was appropriate because New
Harvest provided K.L. with diagnostic tests upon
enrollment to assess her academic proficiency and
needs and provided K.L. with one-on-one tutoring
assistance and extra help from her teachers. The
fact that New Harvest is a parochial school does not
change this analysis. K.L.’s parents were therefore

A-6
entitled to reimbursement for K.L.’s private school
tuition.
Finally, under California law, an ALJ may
reduce or deny a reimbursement award where the
parent did not give written notice to the LEA at
least ten days prior to the removal of the child from
public school. Cal. Educ. Code § 56176. Here,
although K.L.’s parents’ failed to provide ten days’
notice before withdrawing K.L. from BUSD in 2014,
BUSD fails to make any argument as to why the
ALJ was required to use her discretion to reduce
the reimbursement award for K.L.’s private school
tuition. In any event, K.L.’s parents notified BUSD
of K.L.’s placement at New Harvest and their
intent to seek reimbursement in May 2015, and the
ALJ awarded reimbursement for the 2015 and 2016
school years, well after BUSD had notice of K.L.’s
withdrawal.
AFFIRMED.

A-7
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
DEC 2 2020
Molly C. Dwyer, Clerk
U.S. Court of Appeals
No. 19-55912
D.C. No. 2:18-cv-00043-FMO-FFM
Central District of California, Los Angeles
ORDER
BELLFLOWER UNIFIED SCHOOL
DISTRICT,
Plaintiff-counterdefendant-Appellant,
v.
FERNANDO LUA, individually and
on behalf of minor K.L.,
Defendant-Appellee,
SANDRA LUA, individually and on
behalf of minor K.L.,
Defendant-counterclaimant-Appellee.

A-8
Before:

MURGUIA and OWENS, Circuit Judges,
and SETTLE,* District Judge.

Judges Murguia and Owens voted to deny
the petition for rehearing en banc, and Judge Settle
recommended denying the petition for rehearing en
banc.
The full court has been advised of the
petition for rehearing en banc and no judge has
requested a vote on whether to rehear the matter
en banc. Fed. R. App. P. 35.
The petition for rehearing en banc is
DENIED (Doc. 50).

*

The Honorable Benjamin H. Settle, United States
District Judge for the Western District of Washington,
sitting by designation.

A-9
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV 18-0043 FMO (FFMx)
BELLFLOWER UNIFIED SCHOOL
DISTRICT,
v.

Plaintiff,

FERNANDO LUA, et al.,
Defendants.

JUDGMENT
IT IS ADJUDGED that the administrative
law judge’s determination of November 20, 2017, is
affirmed.
Dated this 8th day of July, 2019.
/s/
Fernando M. Olguin
United States District Judge

A-10
APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV 18-0043 FMO (FFMx)
BELLFLOWER UNIFIED SCHOOL
DISTRICT,
Plaintiff,
v.
FERNANDO LUA, et al.,
Defendants.
__________________________________
ORDER AFFIRMING DECISION OF OFFICE
OF ADMINISTRATIVE HEARINGS
INTRODUCTION
This appeal concerns an Administrative Due
Process Hearing under the Individuals with
Disabilities Education Act (“IDEA”), 20 U.S.C.
§§ 1400 et seq. Plaintiff Bellflower Unified School
District (“Bellflower” or “School District”) challenges the administrative law judge’s (“ALJ”)
decision in favor of K.L. and her parents Fernando
Lua (“Fernando”), and Sandra Lua (“Sandra”)
(collectively, “K.L.’s parents”). (See Dkt. 1,

A-11
Complaint). The ALJ found that the School District
had failed to hold an individualized education
program (“IEP”) meeting despite multiple requests
from K.L.’s parents. (See AR 457). The ALJ also
determined that the School District had “deprived
[K.L.’s parents] of the opportunity to meaningfully
participate in the development of [K.L.’s]
educational program because it failed to assess
[K.L.].” (Id.). Lastly, the ALJ found that “the IEP
team was not able to make an appropriate FAPE1
offer and [K.L.’s parents]] were not able to
meaningfully participate in the IEP team meeting.”
(Id.). The ALJ therefore awarded K.L.’s parents the
costs they incurred from having to place K.L. in
private school. (See id. at 471).
The court, having reviewed all the briefing
with respect to the parties’ Joint Trial Brief (see
Dkt. 42, “Joint Br.”), concludes that oral argument
is not necessary to resolve the parties’ dispute.
See Fed. R. Civ. P. 78; Local Rule 7-15; Willis v.
1

FAPE” refers to the free appropriate public education
that public school districts “must make . . . available to
all children with disabilities.” Fry v. Napoleon
Community Schs., 137 S.Ct. 743, 53 (2017) (internal
quotation marks omitted). “A FAPE is defined as an
education that is provided at public expense, meets the
standards of the state educational agency, and is in
conformity with the student’s IEP.” Baquerizo v. Garden
Grove Unified Sch. Dist., 826 F.3d 1179, 1184 (9th Cir.
2016).

A-12
Pac. Mar. Ass’n, 244 F.3d 675, 684 n. 2 (9th Cir. 6
2001).
SUMMARY OF FACTS
The facts underlying this action are ably set
forth in the ALJ’s decision. (See AR 456-72).
Accordingly, “[i]nsofar as any specific fact is not
disputed, the ALJ’s factual findings are adopted in
recognition of the ‘due weight’ to be given to those
administrative proceedings.” Tehachapi Unified
Sch. Dist. v. K.M. by & through Markham, 2018 WL
4735735, *3 (E.D. Cal. 2018) (quoting R.B., ex rel.
F.B. v. Napa Valley Unified Sch. Dist., 496 F.3d 932,
937 (9th Cir. 2007)); see Union Sch. Dist. v. Smith, 15
F.3d 1519, 1524 (9th Cir. 1994) (“We give deference
to the administrative findings of the Hearing
Officer particularly when, as here, they are
thorough and careful.”).
LEGAL STANDARD
The IDEA provides that “[a]ny party
aggrieved by the findings and decision” of the ALJ
“shall have the right to bring a civil action with
respect to the complaint . . . in a district court of the
United States.” 20 U.S.C. § 1415(i)(2)(A). In such
actions, the court “(i) shall receive the records of the
administrative proceedings; (ii) shall hear
additional evidence at the request of a party; and
(iii) basing its decision on the preponderance of the
evidence, shall grant such relief as the court
determines is appropriate.” 20 U.S.C. § 1415(i)

A-13
(2)(C). The burden of persuasion is on the party
challenging the administrative decision. L.M. ex rel.
Sam M. v. Capistrano Unified Sch. Dist., 556 23
F.3d 900, 910 (9th Cir. 2009).
Judicial review in IDEA cases “differs
substantially from judicial review of other agency
actions, in which courts generally are confined to
the administrative record and are held to a highly
deferential standard of review.” Ojai Unified Sch.
Dist. v. Jackson, 4 F.3d 1467, 1471 (9th Cir. 1993).
In IDEA cases, courts give “less deference than is
conventional” in the review of administrative
decisions. Id. at 1472 (quoting Kerkam v. McKenzie,
862 F.2d 884, 887 (D.C. Cir. 1988)). As summarized
in Ash v. Lake Oswego Sch. Dist., 980 F.2d 585 (9th
Cir. 1992):
The court, in recognition of the
expertise of the administrative agency,
must consider the findings carefully. . .
. After such consideration, the court
is free to accept or reject the findings
in part or in whole. Thus, . . . federal
courts cannot ignore the administrative findings. . . . Ultimately, however, the weight to be accorded
administrative findings under the
IDEA is a matter within the discretion
of the federal courts.
Id. at 587-88 (internal citations omitted); see Ojai, 4
F.3d at 1474.

A-14
“The amount of deference accorded the
hearing officer’s findings increases where they are
‘thorough and careful.’” Capistrano Unified Sch.
Dist. v. Wartenberg, 59 F.3d 884, 891 (9th Cir. 1995);
see Anchorage Sch. Dist. v. M.P., 689 F.3d 1047,
1053 (9th Cir. 2012) (“An administrative hearing
officer’s ‘thorough and careful’ findings receive
particular deference.”). After such consideration,
“the court is free to accept or reject the findings in
part or in whole.” Gregory K. v. Longview Sch. Dist.,
811 F.2d 1307, 1311 (9th Cir. 1987) (citation
omitted). “When the court has before it all the
evidence regarding the disputed issues, it may
make a final judgment in what is not a true
summary judgment procedure [but] a bench trial
based on a stipulated record.” Miller v. San
Mateo-Foster City Unified Sch. Dist., 318 F.Supp.2d
851, 859 (N.D. Cal. 2004) (internal quotation marks
omitted); see Ojai, 4 F.3d at 1472 (finding such a
procedure proper when the court “had before it all
of the[ ] evidence regarding the issues in
dispute[.]”); see also, Beth B. v. Van Clay, 282 F.3d
493, 496 n. 2 (7th Cir. 2002) (noting that summary
judgment is appropriate in IDEA cases “even when
the facts are in dispute, and is based on a
preponderance of the evidence.”); O’Toole v. Olathe
Dist. Schs. Unified Sch. Dist. No. 233, 144 F.3d 692,
709 (10th Cir. 1998) (acknowledging that in IDEA
cases, even at summary judgment, the district court
has an “obligation to independently review the
record and reach a decision based on a
preponderance of the evidence.”).

A-15
DISCUSSION
I.

INDIVIDUALS WITH DISABILITIES
EDUCATION ACT.

In enacting the IDEA, Congress sought to
“ensure that all children with disabilities have
available to them a free appropriate public
education that emphasizes special education and
related services designed to meet their unique
needs and prepare them for further education,
employment, and independent living;” “ensure that
the rights of children with disabilities and parents
of such children are protected;” and “assist States,
localities, educational service agencies, and Federal
agencies to provide for the education of all children
with disabilities[.]” 20 U.S.C. § 1400(d)(1)(A)-(C).
“To accomplish these objectives, the federal
government provides funding to participating state
and local educational agencies, which is contingent
on the agency’s compliance with the IDEA’s
procedural
and
substantive
requirements.”
Anchorage Sch. Dist., 689 F.3d at 1053-54; Ojai, 4
F.3d at 1469 (“The IDEA provides federal funds to
assist state and local agencies in educating children
with disabilities, but conditions such funding on
compliance with certain goals and procedures.”).
The IDEA’s primary goal of assuring that all
disabled children have a “free and appropriate
public education,” or FAPE, that meets their unique
educational needs, see 20 U.S.C. § 1400(c), is
achieved through the development of an IEP for

A-16
each child with a disability. See 20 U.S.C. § 1414;
Ojai, 4 F.3d at 1469. The IEP is crafted by a team
that includes a student’s parents, teachers, the
local educational agency, and where appropriate,
the student. See 20 U.S.C. § 1414(d)(1)(B). The IEP
must consist of various items including “a statement
of the child’s present levels of academic achievement
and functional performance,” “a statement of
measurable annual goals, including academic and
functional goals,” and “a description of how the
child’s progress toward meeting the annual goals . . .
will be measured.” Id. at § 1414(d)(1)(A). Local
educational agencies must review, and where
appropriate revise, each student’s IEP at least
annually. See id. at 1414(d)(4)(A).
The IDEA also puts in place extensive
procedural safeguards for the benefit of disabled
children and their parents, including the
opportunity to review records, the right to be
notified of any changes in identification, evaluation,
and placement of the student, as well as the right to
file a Due Process Complaint regarding their
child’s education. 20 U.S.C. § 1415(b)-(h). Such
complaints may lead to mediation or an
appearance at an impartial Due Process Hearing
conducted by a hearing officer. See id. at
§ 1415(e)-(f).

A-17
II.

THE SCHOOL DISTRICT’S OBLIGATION TO CONDUCT AN IEP.

K.L. lives within the boundaries of the
Bellflower Unified School District. (See AR 457).
Until September 2014, K.L. attended one of
Bellflower’s elementary schools. (See id. at 457-58).
An IEP team meeting for K.L. was held in June
2014, to help her transition from sixth grade to
middle school. (See id. at 457). Following that
meeting, Bellflower offered an IEP for K.L., which
K.L.’s parents accepted. (See id. at 457-58).
However, on September 8, 2014, K.L.’s parents
enrolled her at the New Harvest Christian School
(“New Harvest”), a private parochial school located
within the boundaries of the Norwalk-La Mirada
Unified School District (“Norwalk”). (See id. at 458;
Dkt. 42, Joint Br. at 4).
On April 23, 2015, K.L.’s parents sent a
letter to Bellflower stating that the reason they
removed K.L. from the School District was because
they feared for her safety2 and they didn’t believe
that K.L. was making sufficient academic progress.
(See AR 458). In another letter, also dated for April
23, 2015, K.L.’s mother, Sandra, stated: “I believe
the District has been either misinformed or wrongly
assumed that my daughter being privately placed
2

Specifically, they were dissatisfied with the School
District’s inadequate response to allegations that
another student was harassing K.L. (See AR 458).

A-18
means that I am not interested in an offer of a Free
and Appropriate Public Education (FAPE) for her. I
am still interested in a public school placement for
[K.L.] and request the District provide an offer of
FAPE for the 2015/2016 school year.” (Id. at 369).
Sandra continued: “Please consider this letter to
be my oral written request for an IEP team meeting
to be scheduled for [K.L.].” (Id.). However, the
School District refused to conduct an IEP for K.L.
(See AR 458). In an April 28, 2015, letter, Tracy
McSparren (“McSparren”), a School District
administrator, told K.L.’s parents that because K.L.
“is not currently enrolled in [the School District],
nor does she attend any private school located in
the
[Bellflower
Unified
School
District]
boundaries,” Bellflower had no obligation to
conduct an IEP. (AR 227). According to McSparren,
it was Norwalk’s responsibility to attend to K.L.’s
needs. (See id.). McSparren offered to hold an IEP
meeting within 30 days of K.L.’s re-enrollment at a
school located within the School District. (See id. at
228).
K.L.’s parents sent two more letters
requesting an IEP, the first on May 12, 2015. (See
AR 459). They sent the second letter on April 8,
2016, requesting an IEP in advance of the 2016-17
school year. (See id.). They also sent an email on
September 6, 2016, making the same request.
(See id.). But in each instance, Bellflower refused to
conduct an IEP. (See id.)

A-19
Title 20 U.S.C. § 1414(d)(2)(A) provides that
“[a]t the beginning of each school year, each local
educational agency, State educational agency, or
other State agency, as the case may be, shall have
in effect, for each child with a disability in the
agency’s jurisdiction, an individualized education
program[.]” In turn, § 1414(a)(2)(A)(ii) obligates a
school district to conduct a reevaluation of a child’s
IEP “if the child’s parents or teacher requests a
reevaluation.” In other words, “school districts must
conduct an assessment of a student’s educational
needs if the parent requests one[.]” Hill v. Dist. of
Columbia, 2016 WL 4506972, *17 (D.D.C. 2016).
Bellflower does not dispute that it is a local
educational agency, (see, generally, Dkt. 42, Joint
Br.), but seems to argue that it was not the agency
with jurisdiction over K.L., because K.L. attended
New Harvest within the Norwalk school district.
(See id. at 16-20). However, the School District
provides no authority establishing that Norwalk,
rather than it, has jurisdiction over K.L. (See,
generally, Dkt. 42, Joint Br.). This is unsurprising,
given that jurisdiction for IEP purposes is
determined by the disabled student’s residency.
See, e.g., Doe v. East Lyme Bd. of Educ., 790 F.3d
440, 450 (2d Cir. 2015) (noting § 1414(d)(2)(A)’s
requirement, and then observing: “It is undisputed
that the Student was, at all relevant times, resident
in East Lyme and within the Board’s jurisdiction.
The Board therefore violated the IDEA by failing to
offer IEPs for these school years, and these
violations deprived the Student of a FAPE.”);

A-20
Phillips v. Independent Sch. Dist. No. 3 of Okmulgee
Cty., 2018 WL 442997, *3 (E.D. Okla. 2018) (“The
Act requires each local education agency (i.e.,
school district) to have in effect an IEP for each
child with a disability within the agency’s
jurisdiction, at the beginning of each school year. It
is an absurd result if a school district need not
resolve the residency issue before the beginning of
the school year, let alone raising it two years
later.”) (internal citation, alteration, and quotation
marks omitted).
In particular, the court is persuaded by
Dep’t of Educ., State of Haw. v. M.F. ex rel. R.F., 840
F.Supp.2d 1214 (D. Haw. 2011), which addressed a
similar issue. The court there held that
“‘jurisdiction’ refers to geography – that is, it refers
to a student’s residence as the criteria for which a
local agency is responsible for IDEA compliance.”
Id. at 1231 n. 14. The court noted commentary to
IDEA regulations, stating that “§ 300.201 already
clarifies that the district of residence is responsible
for making FAPE available to the child.
Accordingly, the district in which the private
elementary or secondary school is located is not
responsible for making FAPE available to a child
residing in another district.” 71 Fed.Reg. 46540-01
(2006); see also S.B. v. San Mateo Foster City Sch.
Dist., 2017 WL 4856868, *17 (N.D. Cal. 2017)
(concluding that “what matters in determining the
district’s ongoing responsibilities is where the child
resides, rather than where they are currently
enrolled in school”). In short, the ALJ did not

A-21
commit error when it held that the School District
was responsible for conducting an IEP following
K.L.’s parents’ request for one.
III.

REIMBURSEMENT

The School District next challenges the ALJ’s
decision to award K.L. and her parents the cost of
sending K.L. to private school. (See Dkt. 42, Joint
Br. at 21-35).
In support of its argument, the
School District relies on C.B. ex rel. Baquerizo v.
Garden Grove Unified Sch. Dist., 635 F.3d 1155
(9th Cir. 2011). (See Dkt. 42, Joint Br. at 21-22).
The School District’s reliance on C.B. is
unpersuasive. In that case, the Ninth Circuit held
that “[a] parent or guardian is entitled to
reimbursement [for placing a child in private
school] only if a federal court concludes both (1)
that the public placement violated the IDEA, and
(2) that the private school placement was proper
under the [IDEA].” Id. at 1159 (internal quotation
marks omitted). The School District challenges both
prongs, arguing that it did not violate the IDEA
and that K.L.’s placement in New Harvest was
improper. (See Dkt. 42, Joint Br. at 21-22).
As to the first prong, “[a] child is denied a
FAPE only when the procedural violation result[s]
in the loss of educational opportunity or seriously
infringe[s] the parents’ opportunity to participate in
the IEP formation process.” R.B., 496 F.3d at 938
(internal quotation marks omitted). Where, as here,
the School District failed even to offer an IEP, see

A-22
supra at § II., the court readily concludes that the
School District violated the IDEA. See East Lyme,
790 F.3d at 450 (“The Board therefore violated the
IDEA by failing to offer IEPs for these school years,
and these violations deprived the Student of a
FAPE.”). And to the extent the School District relies
on the June 2014 IEP and offer of FAPE, (see Dkt.
42, Joint Br. at 22), it fails to explain why the June
2014 IEP is sufficient to satisfy the School District’s
IDEA obligations with respect to K.L.’s 2015 and
2016 requests for an IEP. (See, generally, Dkt. 42,
Joint Br.). In any event, the School District
overlooks the IDEA’s requirement that it was
obligated to reevaluate this IEP “if the child’s
parents or teachers requests a reevaluation.” 20
U.S.C. § 1414(a)(2)(A)(ii). In other words, the fact
that the School District offered K.L. an IEP in June
2014 does not excuse its present failure to be
responsive to K.L.’s more recent IEP requests.
With respect to the second prong, “[a]
placement is proper if it is specially designed to
meet the unique needs of a handicapped child,
supported by such services as are necessary to
permit the child to benefit from instruction.” J.T. ex
rel. Renee T. v. Dep’t of Educ. Haw., 695 F.Appx.
227, 228 (9th Cir. 2017) (internal quotation marks
omitted). The School District contends that New
Harvest lacks special education services, does not
have “California Credentialed educators,” does not
“provide objective criteria to determine [K.L.’s]
levels of performance,” and does not furnish “a
California accredited high school diploma.” (Dkt.

A-23
42, Joint Br. at 29). The School District also makes
much of the fact that New Harvest is a Christian
school that incorporates religious instruction into
its curriculum.3 (See id. at 29, 31-32).
3

The School District also raises a statute of limitations
argument.
(See Dkt. 42, Joint Br. at 24-25).
However, the ALJ rejected this argument, finding that
K.L.’s complaint “does not appear [to claim] anything
more than the two year statute of limitations.” (AR 68).
The School District does not address the ALJ’s
reasoning. (See, generally, Dkt. 42, Joint Br.). Instead, it
points to the withdrawal of K.L. from the School
District, and seems to imply that this was the event
which triggered the limitations period. (See id. at 25).
But this misses the mark because “the IDEA’s statute of
limitations is triggered when the parent or agency knew
or should have known about the alleged action that
forms the basis of the complaint[.]” Avila v. Spokane
Sch. Dist. 81, 852 F.3d 936, 944 (9th Cir. 2017) (internal
quotation marks and emphasis omitted). Here, the
School District’s refusal to perform an IEP took place
within the context of a series of letters the parties
exchanged in April and May of 2015. Specifically,
McSparren sent a letter refusing to conduct an IEP on
April 28, 2015. (See AR 227-28). While it is not clear
when K.L.’s parents received this letter, they responded
to McSparren’s letter in a May 12, 2015, letter in which
they once again requested an IEP meeting. (See AR
229-30). In a May 14, 2015, letter, the School District
again refused to conduct the IEP. (See id. at 231-33). It
was this letter which purported to “constitute[] prior
written notice to [K.L.’s parents] that the District will
not reimburse [them] for any costs associated with”
placing K.L. in private school. (AR 233). K.L.’s parents
filed their Request for Mediation and Due Process
Hearing on May 4, 2017. (See AR 1-2). Put briefly, the

A-24
The School District’s contentions are
unpersuasive. “[P]arents need not show that a
private placement furnishes every special service
necessary to maximize their child’s potential.” C.B.,
635 F.3d at 1159 (quoting Frank G. v. Bd. of Educ.,
459 F.3d 356, 365 (2d Cir. 2006)). Instead, “[t]hey
need only demonstrate that the placement provides
educational instruction specially designed to meet
the unique needs of a handicapped child, supported
by such services as are necessary to permit the child
to benefit from instruction.” Id. Accordingly, in C.B.,
the Ninth Circuit affirmed a district court order
awarding full reimbursement for the costs of
attending a private school where that school
“delivered many, but not all, of the special
education services that [the child] needed.” Id. at
1160; see also id. (“The district court gave great
weight to the fact that [the child] received
significant benefits in important areas of his special
educational needs.”); S.L. ex rel. Loof v. Upland
Unified Sch. Dist., 747 F.3d 1155, 1160 (9th Cir.
2014) (rejecting improper placement argument
where the private school’s “instructional materials
and
curriculum,
structure,
support,
and
socialization” led to the student becoming “more
socially involved with other students,” “receiv[ing]
good grades and [being] promoted to fifth grade”).

School District has not given the court any reason to
disturb the ALJ’s determination that K.L.’s administrative complaint was timely filed

A-25
Here, as in C.B. and S.L., K.L.’s placement at
New Harvest was proper because it provided her
with “significant educational benefits.” See C.B.,
635 F.3d at 1159; see, e.g., Ash v. Lake Oswego Sch.
Dist. No. 7J, 766 F.Supp. 852, 863 (D. Or. 1991)
(finding placement “appropriate” where student’s
“severe behavioral problems have improved, and he
has received significant educational benefits from
that placement”). New Harvest provided K.L. with
diagnostic tests upon her enrollment to assess her
academic proficiency and needs. (See AR 220).
These tests showed that K.L. was “below grade
level,” and when New Harvest provided her with
sixth grade course work, “she was unable to do the
work.” (Id.). New Harvest then provided K.L.
with a fourth grade curriculum, and with the
assistance of “one on one tutoring” and “extra help”
from her teachers, combined with K.L.’s “supportive
mother,” K.L. was able to perform successfully at
that grade level. (Id.). K.L. achieved significant
academic progress during her tenure at New
Harvest. After three years of instruction, she was
working at grade level. (See AR 461). She took
classes in English, math, science, history,
etymology, and physical education. (See id.). K.L.
subsequently passed her ninth grade classes.4 (See
id.).
4

Despite the School District’s concern regarding the
religious aspects of New Harvest’s curriculum, it did not
come forward with any case law suggesting that the
religious nature of a private school renders a student’s
placement in that school improper. (See, generally, Dkt.
42, Joint Br.). Indeed, such case law would be in conflict

A-26
Finally, the School District argues that the
ALJ was wrong to award relief to K.L. and her
parents in light of their failure to give the School
District ten days’ notice before withdrawing K.L.
from the School District. (See Dkt. 42, Joint Br. at
32-34). The School District claims that it received
notice of K.L.’s withdrawal on September 8, 2014.
(See id. at 33) (“On September 8, 2014, Parents
through their counsel notified BUSD of the
withdrawal after the withdrawal had already
happened.”) (emphasis omitted); see also AR 363
(the letter of withdrawal)). However, the School
District does not supply the court with the actual
date of withdrawal. (See, generally, Dkt. 42, Joint
Br.). Nor does it give the court any reason to doubt
the ALJ’s determination that K.L.’s parents
“withdrew [K.L.] from [the] District on September 8,
2014,” the same day the School District was
purportedly informed of the withdrawal. (AR 458).
In any event, the language of the pertinent statute,
Cal. Educ. Code § 56176, provides only that
reimbursement for the cost of private school
placement “may be reduced or denied” upon failure
to give ten days notice. As such, the ALJ (and, by
extension, the court) is given the discretion to
derogate or annul damages resulting from the
private placement. See Barron v. Reich, 13 F.3d
with S.L., where the Ninth Circuit found that a student’s
placement “in a private, parochial school called Our
Lady of Assumption” was appropriate, and ordered the
school district to reimburse the student and her parents
for the cost of tuition. 747 F.3d at 1157, 1160.

A-27
1370, 1375-76 (9th Cir. 1994) (statute’s use of term
“may” rather than “shall” indicates grant of
discretion); Ngatia v. Holder, 328 F.Appx. 387, 388
(9th Cir. 2009) (same principle). The School District
furnishes no reason why the ALJ should have
exercised this discretion to deny K.L. and her
parents the costs of placing K.L. in private school.
(See, generally, Dkt. 42, Joint Br. at 32-34).
Accordingly, the court affirms the ALJ’s decision
awarding K.L. and her parents the cost of sending
K.L. to private school.
CONCLUSION
Based on the foregoing, IT IS ORDERED
THAT:
1. The decision of the ALJ granting relief for
defendants is affirmed. Judgment shall be entered
accordingly.
2. Prior to the filing of any motion for
attorney’s fees and costs, the parties shall meet and
confer in a good faith effort to resolve the motion.
Dated this 8th day of July, 2019.

/s/
Fernando M. Olguin
United States District Judge

A-28
APPENDIX E

BEFORE THE OFFICE OF
ADMINISTRATIVE HEARINGS
STATE OF CALIFORNIA
OAH Case no. 2017050338
In the Matter of:
PARENT ON BEHALF OF STUDENT,
v.
BELLFLOWER UNIFIED SCHOOL
DISTRICT.
–––––––––––––––––––––––––––––––––
DECISION
Student filed a due process hearing request
with the Office of Administrative Hearings on May
5, 2017, naming Bellflower Unified School District.
OAH continued the matter for good cause on June
13, 2017.
Administrative Law Judge Linda Johnson
heard this matter in Bellflower, California, on
September 26 and 27, 2017.

A-29
Tania Whiteleather, Attorney at Law,
represented Student. Miho Murai, Attorney at Law,
and Christopher Russell, Student’s educational
advocate, assisted Ms. Whiteleather during the
second day of the hearing. Student’s mother
attended both hearing days.1 Student’s father and
Student did not attend the hearing.
Eric Bathen and Marcia Brady, Attorneys at
Law, represented District.
Tracy McSparren,
District’s Assistant Superintendent, attended all of
the hearing.
On September 27, 2017, OAH granted the
parties’ request for a continuance to allow the
parties to file written closing briefs. The record
closed on October 16, 2017, upon receipt of written
closing briefs.
ISSUES2
(1)

Did District deny Student a free appropriate
public education by failing to timely convene
an individualized education program team
1

A Spanish language interpreter assisted Mother
during the second day of the hearing.
2

The issues have been rephrased and reorganized
for clarity. The ALJ has authority to redefine a party’s
issues, so long as no substantive changes are made.
(J.W. v. Fresno Unified School Dist. (9th Cir. 2010) 626
F.3d 431, 442-443.)

A-30
meeting in 2015 and 2016, after receiving
Parents’ request for an IEP team meeting?
(2)

Did District deny Student a FAPE by failing
to timely conduct Student’s triennial
assessment?

(3)

Did District deny Student a FAPE and
prevent Parents’ from participating in a
meaningful way in Student’s 2017 annual
IEP team meeting by failing to conduct
appropriate assessments in all areas of
suspected disability?
SUMMARY OF DECISION

Student met her burden on all issues. District
denied Student a FAPE because it failed to hold an IEP
team meeting despite Parents’ multiple requests as
District’s defense that Student needed to first enroll in a
District school was without merit. By failing to hold an IEP
team meeting and offer Student a FAPE, Parents did not
have the option to choose between District’s offer and a
private school. District also deprived Parents of the
opportunity to meaningfully participate in the development
of Student’s educational program because it failed to assess
Student. Without updated assessment information the IEP
team was not able to make an appropriate FAPE offer and
Parents were not able to meaningfully participate in the IEP
team meeting.

A-31
FACTUAL FINDINGS

Background and Jurisdictional Matters
1.
Student was a 16-year-old girl at the
time of the hearing who resided at all relevant
times with Parents within District’s boundaries.
Student attended school in District from
preschool in 2004 until sixth grade in 2014.
Student’s last triennial assessment was in 2012.
2.
District held an IEP team meeting on
June 3, 2014, to transition Student from sixth grade
at an elementary school to seventh grade at a middle
school, and made an offer of FAPE. District did not
offer extended school year. Parents did not consent to
the June 3, 2014 IEP at the meeting, but their

attorney consented to the entirety of the IEP on
their behalf via a letter dated July 3, 2014.
Private Placement in 2014-2015 School Year
3.
Parents withdrew Student from
District on September 8, 2014, and privately
placed her at a parochial school located within
the boundaries of the Norwalk-La Mirada Unified
School District. Parents continued to live within
District’s boundaries.
4.
Parents enrolled Student in a private
parochial school outside of District because they

A-32

were increasingly concerned about Student’s
safety. They were also concerned about how
District was responding to Student’s allegations
of harassment. Although Parents voiced their
concerns to their then attorney, neither Parents
nor their attorney informed District about the
concerns until April 2015.
5.
On October 9, 2014, Norwalk-La
Mirada held an individual service plan meeting.
The purpose of the meeting was to determine
what, if any, services Norwalk-La Mirada would
offer Student as a parentally placed private
school student. District’s assistant superintendent Tracy McSparren attended the meeting
on District’s behalf. Norwalk-La Mirada offered
five 60 minute speech and language consultation
sessions per year with its case carrier and the
private parochial school teacher. Parents
requested direct speech and language services for
Student. Norwalk-La Mirada declined to provide
direct services and Parents were advised to
reenroll Student in District to receive direct
services. Parents did not reenroll Student in
District.
2015 and 2016 Requests for IEP Team Meeting
and FAPE Offer
6.
Ms. McSparren communicated with
Parents multiple times during the 2015-2016 and
2016-2017 school years. Ms. McSparren was

A-33

responsible for special education and student
support for District. Ms. McSparren has a
master’s degree in education from California State
University as well as a teaching credential and a
bachelor’s degree in biology. Ms. McSparren has 22
years of experience with special education.
7.
On April 23, 2015, Parents sent a
letter to District informing it they had previously
removed Student from District because they were
concerned for her safety, and because they
believed at that time she was not making
academic progress. Parents wanted Student to
return to District and asked for an IEP team
meeting and an offer of FAPE for the 2015-2016
school year.
8. District responded to Parents’
letter on April 28, 2015; District explained it
would not hold an IEP team meeting for
Student until she reenrolled in District. If
Student reenrolled in District, District would
place Student based on her last consented to
IEP and hold an IEP team meeting within
30 days of Student attending a District
school.
9.
On May 12, 2015, Parents sent a
letter to District informing it they had previously
disagreed with the June 3, 2014 IEP, provided 10
day notice of their intent to seek reimbursement

A-34

for the private school placement, and again asked
for an IEP team meeting and offer of FAPE at
District.
10. District responded on May 14, 2015,
to Parent’s May 12, 2015 letter with a prior
written notice. District informed Parents it would
not reimburse Parents for Student’s tuition at her
private parochial school. District again explained
that if Student reenrolled in District, it would
place her based on her last consented to IEP and
hold an IEP team meeting within 30 days of
Student’s reenrollment in District. Parents
declined to enroll Student at District for the
2015-2016 school year, and Student remained at
the private parochial school.
11. On April 8, 2016, Parents sent a
letter to District asking for an educational
placement at District for Student for the
2016-2017 school year. Parents requested an IEP
team meeting to develop a FAPE for Student
because they did not agree with District’s offer in
the June 3, 2014 IEP.
12. On April 11, 2016, District sent a
Prior Written Notice to Parents explaining that it
would not hold an IEP team meeting or make an
offer of FAPE for a student who was not enrolled
in District. If Student reenrolled in District it
would make a parallel placement and hold an
IEP team meeting within her first 30 days of

A-35

attendance at a District school to develop an IEP
and offer FAPE. Student did not enroll in District
before the end of the 2015-2016 school year.
13. On September 6, 2016, Parents sent
an electronic mail to District requesting an IEP
team meeting and an offer of FAPE at District for
the 2016-2017 school year. Parents explained
they understood District’s position that Student
must first be enrolled in District before it would
hold an IEP team meeting. However, Parents
disagreed with that approach, and Student
remained at the private school.
14. District sent a prior written notice on
September 14, 2016, in response to Parents’
September 6, 2016 communication, declining to
hold an IEP team meeting. District again
informed Parents it would not hold an IEP team
meeting or make a FAPE offer until Student
reenrolled in District.
15. Ms. McSparren opined at hearing
that, based on practices within the greater Los
Angeles area special education local plan areas’
private school agreements, District was not
responsible for assessing Student, holding an IEP
team meeting, or making an offer of FAPE until
Student reenrolled in District. The private school
agreement gives guidance to districts when a
student is privately placed in a private school
located in a different district from where the

A-36

family resides. The private school agreement
defines the district where the family resides as
the district of residence, and the district where
the private school is located as the district of
location. The agreement directs the district of
residence to refer the family to the district of
location for assessments and directs the district of
location to assess students and offer an individual
service plan. However, the private school
agreement directs the district of residence to
conduct the assessment if the Student will be
attending a public school in the future. The private
school agreement also directs the district of
residence to hold an IEP team meeting and provide
an offer of FAPE if at any time the parent indicates
that they would prefer the student to attend public
school. Ms. McSparren’s testimony was not
persuasive as it was contrary to the directions in
the private school agreement.
February 15, 2017 IEP Team Meeting
16. On February 15, 2017, while Student
was still attending the private parochial school,
District held an IEP team meeting for Student.3
The following District staff attended: Maricela
3

On January 17, 2017, the California Department of
Education issued an investigation report as a result of a
compliance complaint Student filed against District. The
California Department of Education ordered District to
convene an IEP team meeting for Student on or before
March 10, 2017.

A-37

Harvin, general education teacher; an administrator designee; two service coordinators; a
special education teacher; and Eric Bathen,
District’s attorney. Mother and her advocate,
Christopher Russell, attended the meeting as
well as Cathy Garcia, the principal at Student’s
private parochial school.
17. Ms. Garcia reviewed Student’s
program, supports, and progress at the private
school during the IEP team meeting. Student’s
program had one teacher to 15 students with one
to one support available as needed. Typically
students worked on assignments individually
with support available if they asked for it.
However, Student’s teacher checked on her
periodically without waiting for her to ask for
assistance. Student’s program was not designed
as independent study. Each classroom was
comprised of students in multiple grades, and
students were working on different levels of
curriculum, and therefore information was not
presented in a lecture format. Ms. Garcia
discussed Student’s present levels in general
terms, but, no specific assessments or special
education testing were done to determine
Student’s present levels in reading, written
language, math reasoning or calculation,
language or comprehension levels.
18. Mr. Russell expressed concern at the
IEP team meeting about creating an appropriate

A-38

program for Student without specific updated
information. Student struggled with frustration
tolerance and tended to get overwhelmed.
Student would break pencils or bend pieces of
metal when she was overwhelmed. Student was
also immature in her social interaction.
19. District offered Student four periods
of specialized academic instruction for English,
math, science, and social studies, study skills as
an elective and general education physical
education, based on the June 3, 2014 IEP.
District’s education specialist noted at the IEP
team meeting that District needed additional
information to develop a comprehensive offer of
FAPE. District presented an assessment plan at
the meeting to assess Student in the areas of:
academic achievement; health; intellectual
development; language and speech communication development; motor development; social and
emotional; adaptive behavior; and post-secondary
transition. Mother signed the assessment plan on
February 15, 2017.
Academic Progress at Private School
20. When Student first began at the
private parochial school, the parochial school
gave her a diagnostic test that found her
performing around the fourth grade level. After
attending the private parochial school for three
years Student worked on grade level curriculum

A-39

and passed her ninth grade classes. Student took
five core classes: English, math, science, history,
and etymology, as well as physical education and
an elective. Although religious concepts were
interwoven in all academic classes, Student had
not yet started taking the religion classes because
she was so far behind. The focus for Student was
on catching up to grade level.
21. Each of the core classes consisted of
12 packets of accelerated Christian education.
To demonstrate mastery students took a test at
the end of each packet. If a student failed a test
at the end of a packet they retook the test. The
private parochial school charged $10 for each
repeated test. Student retook one test during the
2015-2016 school year and retook four tests
during the 2016-2017 school year
Parents’ Expenditures
22. For the 2015-2016 school year,
Parents paid $5,175 to the private parochial
school for enrollment, tuition, fees, and other
expenses. Of that, $4,500 was for enrollment and
tuition for the regular school year, $35 on
November 2, 2015, was for a fundraiser and $640
on June 7, 2016, was for summer school.
Additionally, Parents paid $10 on May 2, 2016, to
repeat a test Student initially failed.

A-40

23. For the 2016-2017 school year,
Parents paid $5,183 to the private parochial
school for enrollment, tuition, fees, and other
expenses. Of that, $4,550 was for enrollment and
tuition, $37 was for an art class, and $596 of the
total was not accounted for during the hearing.
Additionally, Parents paid $40 for Student to
retake four tests.
24. Parents also transported Student to
and from the private parochial school every day.
Parents lived 4.79 miles from the private
parochial school. One round trip from Student’s
home to the private parochial school and back to
Student’s home was 9.58 miles.
LEGAL CONCLUSIONS

Introduction – Legal Framework under the IDEA4
1.
This hearing was held under the
IDEA, its regulations, and California statutes
and regulations intended to implement it. (20
U.S.C. § 1400 et. seq.; 34 C.F.R. § 300.1 (2006)5 et
seq.; Ed. Code, § 56000 et seq.; Cal. Code Regs.,
tit. 5, § 3000 et seq.) The main purposes of the
4

Unless otherwise indicated, the legal citations in the
introduction are incorporated by reference into the
analysis of each issue decided below.
5

All subsequent references to the Code of Federal
Regulations are to the 2006 version.

A-41

IDEA are: (1) to ensure that all children with
disabilities have available to them a free and
appropriate public education that emphasizes
special education and related services designed to
meet their unique needs and prepare them for
further education, employment and independent
living, and (2) to ensure that the rights of
children with disabilities and their parents are
protected. (20 U.S.C. § 1400(d)(1); See Ed. Code,
§ 56000, subd. (a).)
2.
A FAPE means special education and
related services that are available to an eligible
child at no charge to the parent or guardian, meet
state educational standards, and conform to the
child’s individualized education program. (20
U.S.C. § 1401(9); 34 C.F.R. § 300.17.) “Special
education” is instruction specially designed to meet
the unique needs of a child with a disability. (20
U.S.C. § 1401(29); 34 C.F.R. § 300.39; Ed. Code,
§ 56031.) “Related services” are transportation and
other developmental, corrective and supportive
services that are required to assist the child in
benefiting from special education. (20 U.S.C.
§ 1401(26); 34 C.F.R. § 300.34; Ed. Code, § 56363,
subd. (a).) In general, an IEP is a written statement
for each child with a disability that is developed
under the IDEA’s procedures with the participation
of parents and school personnel that describes the
child’s needs, academic and functional goals related
to those needs, and a statement of the special
education,
related
services,
and
program
modifications and accommodations that will be

A-42
provided for the child to advance in attaining the
goals, make progress in the general education
curriculum, and participate in education with
disabled and nondisabled peers. (20 U.S.C.
§§ 1401(14), 1414(d)(1)(A); Ed. Code, §§ 56032,
56345, subd. (a).)
3.
In Board of Education of the Hendrick
Hudson Central School District v. Rowley (1982)
458 U.S. 176, 201 [102 S.Ct. 3034, 73 L.Ed.2d 690]
(Rowley), the Supreme Court held that “the ‘basic
floor of opportunity’ provided by the [IDEA]
consists of access to specialized instruction and
related services which are individually designed to
provide educational benefit to” a child with special
needs. Rowley expressly rejected an interpretation
of the IDEA that would require a school district to
“maximize the potential” of each special needs child
“commensurate with the opportunity provided” to
typically developing peers. (Id. at p. 200.) Instead,
Rowley interpreted the FAPE requirement of the
IDEA as being met when a child receives access to
an education that is reasonably calculated to
“confer some educational benefit” upon the child.
(Id. at pp. 200, 203-204.)
4.
The Supreme Court recently clarified
and expanded upon its decision in Rowley. In
Endrew F. v. Douglas County School District, the
court stated that the IDEA guarantees a FAPE to
all students with disabilities by means of an IEP,
and that the IEP is required to be reasonably
calculated to enable the child to make progress

A-43
appropriate in light of his or her circumstances.
(Endrew F. v. Douglas County School Dist. (March
22, 2017, No. 15-827) 580 U.S. __ [137 S.Ct. 988,
996, 197 L.Ed.2d 335]).
5.
The IDEA affords parents and local
educational agencies the procedural protection of
an impartial due process hearing with respect to
any matter relating to the identification,
evaluation, or educational placement of the child, or
the provision of a FAPE to the child. (20 U.S.C.
§ 1415(b)(6) & (f); 34 C.F.R. 300.511; Ed. Code,
§§ 56501, 56502, 56505; Cal. Code Regs., tit. 5,
§ 3082.) The party requesting the hearing is limited
to the issues alleged in the complaint, unless the
other party consents. (20 U.S.C. § 1415(f)(3)(B); Ed.
Code, § 56502, subd. (i).) At the hearing, the party
filing the complaint has the burden of persuasion
by a preponderance of the evidence. (Schaffer v.
Weast (2005) 546 U.S. 49, 56- 62 [126 S.Ct. 528, 163
L.Ed.2d 387]; see 20 U.S.C. § 1415(i)(2)(C)(iii)
[standard of review for IDEA administrative
hearing decision is preponderance of the evidence].)
By this standard, District had the burden of proof
for the issue alleged in this matter.

Issue 1: Failure to Convene an IEP Team Meeting
6.
Student contends District denied her
FAPE by not holding an IEP team meeting after
Parents requested one in 2015 and 2016. District
contends it did not need to hold an IEP team
meeting because Student attended a private school

A-44
located in a different school district. District further
argued it did not have to hold an IEP team meeting
or provide an offer of FAPE until Student
reenrolled in District.
APPLICABLE LAW
7.
Absent a statutory exception, the
IDEA mandates that a district offer a FAPE to all
students who reside in it. States must ensure that
“[a] free appropriate public education is available to
all children with disability residing in the State
between the ages of 3 and 21.” (20 U.S.C. § 1412(a)
(1)(A).) A school district must have an IEP in place
at the beginning of each school year for each child
with exceptional needs residing within the district.
(Ed. Code, § 56344, subd. (c); 20 U.S.C. § 1414(d)
(2)(A); 34 C.F.R. § 300.323(a).) Developing an IEP is
a necessary predicate to offering a FAPE, and the
obligation to offer a FAPE also includes an
obligation to develop an IEP. (Cf. Forest Grove
School Dist. v. T.A. (2009) 557 U.S. 230, 238–39
[129 S.Ct. 2484, 174 L.Ed.2d 168] [“[W]hen a child
requires special education services, a school
district's failure to propose an IEP of any kind is at
least as serious a violation of its responsibilities
under IDEA as a failure to provide an adequate
IEP”].)
8.
To provide a FAPE, a school district
must develop an IEP that is reasonably calculated
to provide an eligible disabled child with an
educational benefit. (Rowley, supra, 458 U.S. at pp.

A-45
206-207.) The district must review the child's IEP
at least once a year and make revisions if
necessary. (20 U.S.C. § 1414(d)(4); Ed. Code,
§ 56341.1, subd. (d).) A parent’s failure to cooperate
in the development of the IEP does not negate this
duty. (Anchorage School Dist. v. M.P. (9th Cir.
2012) 689 F.3d 1047, 1055 (M.P.); 20 U.S.C.
§ 1414(d)(2)(A); 34 C.F.R. § 300.323(a) [School
districts “…cannot excuse their failure to satisfy
the IDEA’s procedural requirements by blaming the
parents.” (M.P. supra, 689 F.3d at p. 1055, citing
W.B. v. Board of Trustees of Target Range School
Dist. No. 23, etc. (9th Cir. 1992) 960 F.2d 1479,
1485, superseded in part by statute on other
grounds) (Target Range).].)
9.
An IEP team meeting requested by a
parent shall be held within 30 calendar days, not
counting days between the pupil’s regular school
sessions, terms, or days of school vacation in excess
of five school days, from the date of receipt of the
parent’s written request. (Ed. Code, §§ 56343.5;
56043, subd. (l).) Each public agency must ensure
that a meeting to develop an IEP for a child is
conducted within 30 days of the determination that
the child needs special related services. (34 C.F.R
300.323(c)(1).)
10.
The failure to timely hold an IEP team
meeting is a procedural violation. A procedural
violation results in a denial of a FAPE only if the
violation: (1) impeded the child’s right to a FAPE;
(2) significantly impeded the parent’s opportunity

A-46
to participate in the decision making process; or (3)
caused a deprivation of educational benefits. (20
U.S.C. § 1415(f)(3)(E)(ii); 34 C.F.R. § 300.513(a)(2);
Ed. Code, § 56505, subd. (f)(2) and (j); Target
Range, supra, 960 F.2d at p. 1484 [“…procedural
inadequacies that result in the loss of educational
opportunity, [citation], or seriously infringe the
parents’ opportunity to participate in the IEP
formulation process, [citations], clearly result in the
denial of a FAPE.”].)
11.
A district’s failure to provide parents a
timely, formal, written IEP offer is not a per se
denial of FAPE. It may be excused as harmless
error where parents participated fully in the IEP
process, understood the placement and services
being offered by the district, and the written offer
was not significantly delayed. (J.W. v. Fresno
Unified School Dist. (9th Cir. 2010) 626 F.3d 431,
461 [District failed to make formal written IEP
offer prior to start of new school year, but presented
such an offer to parents three days after the start of
the new school year].)
12.
The IDEA and the regulations
promulgated pursuant to the IDEA guarantee that
the parents of each child with a disability
participate in any group that makes decisions on
the educational placement of their child. It
emphasizes the participation of the parents in
developing jointly with the school district the child's
educational program and assessing its effectiveness. (20 U.S.C. § 1415(a); see also 20 U.S.C.

A-47
§ 1400(d)(1)(B) (rights of parents protected); 20
U.S.C. 1414(c)(1)(B) (input from parents specified);
20 U.S.C. § 1414(a)(1)(D) (parental consent
specified); 20 U.S.C. § 1415(b) (opportunity for
parents to examine the record specified); and 20
U.S.C. § 1414(d)(2)(C)(i) and (ii)(requiring school
district to consult with parents of students
transferring into district in the development of a
comparable interim IEP).)
13.
“Parentally-placed
private
school
children with disabilities” is a defined term that
means children with disabilities enrolled by their
parents in private schools or facilities. (Ed. Code,
§ 56170; 34 C.F.R. § 300.130.) No parentally-placed
private school child with a disability has an
individual right to receive some or all of the special
education and related services that the child would
receive if enrolled in a public school. (Ed. Code,
§ 56174.5; 34 C.F.R. § 300.137(a).) Instead, parents
of a child in private school have two options: (1)
accept the offer of a FAPE and enroll their student
in the public school, or (2) keep their child in
private school and receive “proportional share”
services, if any, provided to the student pursuant to
title 20 United States Code § 1412(a)(10) and title
34 Code of Federal Regulations §§ 300.130–300.144.
(District of Columbia v. Wolfire (D.D.C. 2014) 10
F.Supp.3d 89, 92.)
14.
Developing an IEP to inform a child’s
parents about the services that could be offered in
an effort to provide that student with a FAPE is not

A-48
the same thing as requiring the local educational
agency to provide the services described in the IEP.
As a result, the development of an IEP does not
implicate the limitations of Title 20 United States
Code section 1412(a)(10) or title 34 Code of Federal
Regulations section 300.147(a). (Id.)
15.
If Parents of a private school child
request an IEP for their child, the local educational
agency is required to honor that request. (Id. at pp.
93-94; District of Columbia v. Vinyard (D.D.C.
2013) 971 F.Supp.2d 103, 111; Hack v. Deer Valley
Unified School Dist. (D.Ariz. July 14, 2017, No.
CV-15-02255-PHX-JJT) 2017 WL 2991970, * 6;
Letter to Eig (OSEP 2009) 52 IDELR 20 136 (local
educational agency where student resides cannot
refuse to conduct the evaluation and determine the
child’s eligibility for FAPE because the child
attends a private school in another district).)
Parents are entitled to place student in private
school even though district of residence had not
previously denied student a FAPE, and also seek a
FAPE from district in which parents continue to
reside. (J.S. v. Scarsdale Union Free School
(S.D.N.Y. 2011) 826 F.Supp.2d 635, 665-668 [“a
district-of residence’s obligations do not simply end
because a child has been privately placed
elsewhere, as the District argues—rather, the
IDEA’s obligations may be shared.”]; 71 Fed. Reg.
46593 (2006); Board of Educ. of Evanston-Skokie
Community Consol. School Dist. 65 v. Risen (N.D.
Ill., June 25, 2013, No. 12 C 5073) 2013 WL
3224439, at *12-14; District of Columbia v. Oliver

A-49
(D.D.C., Feb. 21, 2014, No. CV 13- 00215
BAH/DAR) 2014 WL 686860, at *4 [Districts have
no obligation to provide FAPE to parentally placed
private school students with disabilities; but they
do have an obligation to make FAPE available and
cannot fulfill this duty without developing an IEP].)
16.
An offer of placement must be made to
a unilaterally placed student even if the district
strongly believes that the student is not coming
back to the district, or parents have indicated that
they will not be pursuing services from the district.
The requirement of a formal, written offer should
be enforced rigorously and provides parents with an
opportunity to accept or reject the placement offer.
(Union School Dist. v. Smith (9th Cir. 1994) 15 F.3d
1519, 1526, cert. den., 513 U.S. 965 (1994).) The
IDEA does not make a district’s duties contingent
on parental cooperation with, or acquiescence in,
the district’s preferred course of action. (Anchorage,
supra, 689 F.3d at p. 1055.) Re-enrollment in public
school is not required to receive an IEP. (See Woods
v. Northport Public School (6th Cir. 2012) 487 Fed.
Appx. 968, 979-980 [“It was inappropriate to
require [student] to re-enroll in public school in
order to receive an amended IEP”…[]…“It is
residency, rather than enrollment, that triggers a
district’s IDEA obligations.”]; Cf. N.B. v. State of
Hawaii Department of Educ. (D.Hawaii, July 21,
2014, No. CIV 13–00439 LEK–BMK) 2014 WL
3663452 [A district’s obligation to implement an
interstate transfer student’s IEP begins when the
student enrolls in public school].)

A-50
17.
Even when parents have already
decided to place their child in private school, the
school district is not excused from obtaining their
participation in the IEP process. In D.B. ex rel.
Roberts v. Santa Monica-Malibu Unified School
District (9th Cir. 2015) 606 Fed. Appx. 359,
360-361, the school district held an IEP team
meeting to determine student’s placement and
services for the following school year without
parents, who were unavailable and had already
decided student would not be attending a district
school. The court found that the failure to include
parents in the IEP team meeting was a procedural
violation that denied the Student a FAPE in the
following school year. [“Furthermore, even if D.B.’s
parents already had decided to enroll D.B. at the
Westview School, their exclusion was not
permissible. See Anchorage School Dist v. M.P. (9th
Cir. 2012) 689 F.3d 1047, 1055 (‘[T]he IDEA, its
implementing regulations, and our case law all
emphasize the importance of parental involvement
and advocacy, even when the parents’ preferences
do not align with those of the educational agency.’).”
D.B. ex rel. Roberts, supra, 606 Fed. Appx. 359 at p.
361.]
18.
Parents of a child placed in private
school with an existing IEP may choose to revoke
consent in writing for the provision of special
education and related services to their child. (Ed.
Code, § 56346, subd. (d).) If the parents do not
revoke consent in writing, the school district must
continue to periodically evaluate the student's

A-51
special education needs, either on its own initiative
or at the request of the student’s parents or
teacher. (20 U.S.C. §§ 1412(a)(3)(A) and (a)(4),
1414(a); Department of Educ., State of Hawaii v.
M.F. ex rel. R.F., (D.Hawaii 2011) 840 F.Supp.2d
1214, 1228-1230, clarified on denial of reconsideration, (D.Hawaii, Feb. 28, 2012, No. CIV 11-00047
JMS) 2012 WL 639141 [rejecting public agency’s
argument that the student’s disenrollment from
public education, without a written revocation of
consent to special education services, excused the
agency from preparing further IEP’s until the
parents subsequently requested services].)
19.
A school district must conduct an IEP
team meeting for a special education student at
least annually “to review the pupil's progress, the
[IEP], including whether the annual goals for the
pupil are being achieved, and the appropriateness
of placement, and to make any necessary revisions.”
(Ed. Code, § 56343, subd. (d); 20 U.S.C. § 1414(d)(4)
(A)(i).) The statutes make no exception for the
situation in which a parent has unilaterally placed
her child in a private school and is demanding
reimbursement because the District allegedly failed
to offer or provide a FAPE. The duty of the District
to hold annual IEP team meetings continues during
that period. (Briere v. Fair Haven Grade School
Dist. (D.Vt. 1996) 948 F.Supp. 1242, 1254.)

A-52
ANALYSIS
20.
Student proved in Issue 1 that District
denied her a FAPE by failing to convene an IEP
team meeting after Parents requested one. District
was well aware of Student and that she lived
within its boundaries. Student had attended school
at District since 2004 and qualified for special
education services the entire time. Although
Parents withdrew Student from District on
September 8, 2014, they still resided within District
boundaries, and Parents repeatedly asked for an
IEP team meeting and an offer of FAPE beginning
on April 23, 2015.
21.
Parents consented to the June 3, 2014
IEP through their attorney on July 3, 2014. On May
12, 2015, Parents informed District they disagreed
with the June 3, 2014 IEP and were privately
placing Student and seeking reimbursement.
Although Parents disagreed with District’s June 3,
2014 offer of FAPE, Parents did not revoke consent
for Student to receive special education services.
22.
Between April 23, 2015, and February
15, 2017, when District finally held an IEP team
meeting, Parents asked District to hold an IEP
team meeting and provide an offer of FAPE four
times. Parents requested an IEP team meeting on
April 23, 2015, May 12, 2015, April 8, 2016, and
September 16, 2016. District responded to every
communication and consistently denied the request
stating it did not have a legal obligation to hold an

A-53
IEP team meeting or provide an offer of FAPE until
Student reenrolled in District. District erroneously
believed it was relieved of its obligations to Student
once she dis-enrolled in District and began
attending a private parochial school located in a
different district. District further argued that
because Student did not specifically state she
preferred to attend public school District was
relieved of any obligation to offer FAPE. District
was not obligated to provide FAPE to Student while
she was attending a private school, but, it was
obligated to hold an IEP team meeting and offer
FAPE. Furthermore, District was obligated to hold
an IEP team meeting within 30 days of Parents’
request. District did not hold an IEP team meeting
until February 15, 2017, nearly two years after
Parents’ initial request for an IEP team meeting.
Contrary to District’s position, Student did not need
to enroll in District, the fact that she was a resident
of the district was sufficient to obligate District to
hold an IEP team meeting.
Issues 2 and 3 – Failure to Assess and Denial of
Parental Participation
23.
Student contends District denied her a
FAPE by failing to conduct triennial assessments.
Student further contends that District’s failure to
assess Student resulted in a denial of parental
participation in the IEP team meeting.

A-54
24.
District contends it did not have a
duty to assess Student until she reenrolled in
District and the district of location of the private
parochial school was responsible for any
assessments.
APPLICABLE LAW – ASSESSMENTS
25.
School district evaluations of students
with disabilities under the IDEA serve two
purposes: (1) identifying students who need
specialized instruction and related services because
of an IDEA-eligible disability, and (2) helping IEP
teams identify the special education and related
services the student requires. (34 C.F.R. §§ 300.301
and 300.303.) The first refers to the initial
evaluation to determine if the child has a disability
under the IDEA, while the latter refers to the
follow-up or repeat evaluations that occur
throughout the course of the student’s educational
career. (See 71 Fed. Reg. 46,640 (Aug. 14, 2006).)6
26.
The IDEA provides for reevaluations
to be conducted not more frequently than once a
year unless the parent and school district agree
otherwise, but at least once every three years
unless the parent and school district agree that a
6

Evaluations under IDEA are referred to as
“assessments” under California law. (Ed. Code,
§ 56302.5.) The terms are used interchangeably
throughout the Decision.

A-55
reevaluation is not necessary.7 (20 U.S.C.
§ 1414(a)(2)(B); 34 C.F.R. § 300.303(b); Ed. Code,
§ 56381, subd. (a)(2).) The school district must also
conduct a reevaluation if it determines that the
educational or related service needs of the child,
including improved academic achievement and
functional performance, warrant a reevaluation. (20
U.S.C. § 1414(a)(2)(A)(i); 34 C.F.R. § 300.303(a)(1);
Ed. Code, § 56381, subd. (a)(1).) A school district
must also conduct a reevaluation upon the request
of the child’s parent or teacher. (20 U.S.C. § 1414
(a)(2)(A)(ii); 34 C.F.R. § 300.303(a)(2); Ed. Code,
§ 56381, subd. (a)(1).)
APPLICABLE LAW – PARENTAL
PARTICIPATION
27.
The informed involvement of parents
is central to the IEP process. (Winkelman v. Parma
City School Dist. (2007) 550 U.S. 516, 524 [127 S.Ct.
1994].) Protection of parental participation is
“[a]mong the most important procedural safeguards” in the IDEA. (Amanda J. v. Clark County
School Dist. (9th Cir. 2001) 267 F.3d 877, 882.) The
Ninth Circuit Court of Appeals in Timothy O. v
Paso Robles Unified School Dist. (9th Cir. 2016) 822
F.3d 1105, 1124-1125, held a school district’s failure
to assess Student may result in substantially
7

Three year reevaluations are commonly referred to as
triennial evaluations or triennial assessments. The
terms are used interchangeably throughout the
Decision.

A-56
hindering a parent’s ability to participate in a
child’s educational program, and seriously deprive
the child’s parents, teachers and district staff of the
information necessary to develop an appropriate
educational program with appropriate supports and
services for the child. Failure to assess the Student
therefore resulted in a denial of FAPE. (Id, at pp.
1124-1126.)
ANALYSIS
28.
Student proved in Issues 2 and 3 that
District denied her a FAPE and deprived Parents of
the opportunity to participate in the development of
her educational program because it did not offer to
or assess Student while she was enrolled in private
school. Student did not attend a District school
after the end of the 2013-2014 school year. District
last assessed Student in 2012. District should have
offered to conduct a triennial assessment for
Student in 2015, which it did not do. District
offered an assessment plan that Mother signed at
the February 15, 2017 IEP team meeting. However,
District reminded Parents it would not assess
Student until she reenrolled in District.
29.
District’s failure to conduct a triennial
assessment for Student was a significant
procedural violation of the IDEA depriving Parents
of the opportunity for meaningful participation in
the development of Student’s educational program,
and denied Student a FAPE. By not assessing
Student the IEP team did not have updated

A-57
information to create an IEP and offer FAPE to
Student. If District had procedurally complied with
the IDEA and assessed Student the IEP team
would have been able to discuss Student’s present
levels of performance with current information
instead of the generalities Ms. Garcia provided. The
IEP team would also have been able to create new
goals based on Student’s updated present levels
and offer services, supports, and placement to meet
those goals. Parents would have then had the
opportunity to ask questions and voice concerns
based on current information, instead of relying on
an IEP that was three years old. Parents would also
have had the opportunity to make an informed
decision to either return Student to District or keep
her at the private parochial school. Because District
failed to assess Student and denied Parents the
opportunity to meaningfully participate in the IEP
team meeting, Parents were left with no option but
to keep Student at the private parochial school.
REMEDIES
1.
Student prevailed on Issues 1, 2 and 3.
Student’s requested remedies included requests for
reimbursement and independent educational
evaluations.
2.
Parents
may
be
entitled
to
reimbursement for the costs of placement or
services they have procured for their child when the
school district has failed to provide a FAPE, and the
private placement or services were appropriate

A-58
under the IDEA and replaced services that the
school district failed to provide. (20 U.S.C.
§ 1412(a)(10)(C); School Committee of Burlington v.
Department of Education (1985) 471 U.S. 359,
369-371 [1055 S.Ct. 96] (Burlington).) When school
district fails to provide a FAPE to a pupil with a
disability, the pupil is entitled to relief that is
“appropriate” in light of the purposes of the IDEA.
ALJ’s have broad latitude to fashion equitable
remedies appropriate for a denial of a FAPE. (Id. at
369-370; 20 U.S.C. § 1415(i)(2)(C)(3).)
3.
The ruling in Burlington is not so
narrow as to permit reimbursement only when the
placement or services chosen by the parent are
found to be the exact proper placement or services
required under the IDEA. (Alamo Heights
Independent School Dist. v. State Bd. of Educ. (5th
Cir. 1986) 790 F.2d 1153, 1161.) Although the
parents’ placement need not be a “state approved”
placement, it still must meet certain basic
requirements of the IDEA, such as the requirement
that the placement address the child’s needs and
provide student with an educational benefit.
(Florence County School Dist. Four v. Carter (1993)
510 U.S. 7, 13-14, [114 S.Ct. 361] (Carter).) Parents
may receive reimbursement for the unilateral
placement if it is appropriate. (34 C.F.R.
§ 300.148(c); Ed. Code, § 56175; Carter, supra, 510
U.S. 7, 15-16 [114 S.Ct. 361].) The appropriateness
of the private placement is governed by equitable
considerations. (Ibid.) The Ninth Circuit has held
that to qualify for reimbursement under the IDEA,

A-59
parents need not show that a private placement
furnishes every special education service necessary
to maximize their child’s potential. (C.B. v. Garden
Grove Unified School Dist. (9th Cir. 2011) 635 F.3d
1155, 1159.)
4.
Reimbursement may be reduced or
denied in a variety of circumstances, including
whether a parent acted reasonably with respect to
the unilateral private placement. (20 U.S.C.
§ 1412(a)(10)(C)(iii); 34 C.F.R. § 300.148(d); Ed.
Code, § 56176.) These rules may be equitable in
nature, but they are based in statute.
5.
Student requests reimbursement for
the private parochial school as a remedy for
District’s denial of FAPE. On May 12, 2015,
Parents notified District of their disagreement with
the June 3, 2014 IEP and intent to place Student in
private parochial school and seek reimbursement.
District provided a prior written notice on May 14,
2015, denying Parents’ request for placement and
defending District’s offer in the June 3, 2014 IEP.
Although Parents unilaterally enrolled Student in
the private parochial school and did not inform
District of their disagreement with the June 3, 2014
IEP until a year later, Parents demonstrated their
desire and willingness to have Student attend a
public school by asking four times for an IEP team
meeting and a District FAPE offer. Had District
conducted a triennial assessment and held an IEP
team meeting at that time, Parents would have had
the opportunity to choose between District’s offer of

A-60
FAPE and the private parochial school. Student
made progress at the private parochial school; the
diagnostic test Student took in 2014 placed her at a
fourth grade level, and the undisputed testimony
from Ms. Garcia was that Student passed all her
ninth grade classes and was performing at grade
level.
6.
Parents proved by providing invoices
and proofs of payment that they paid $9,137 in
identifiable mandatory fees and tuition for the
regular school year for the period of September
2015 through June 2017. This includes $4,500 for
tuition and fees for the 2015- 2016 school year,
$4,550 in tuition and fees for the 2016-2017 school
year, $37 for an art class during the 2016-2017
school year, and $50 to retake five tests during the
2015-2016 and 2016-2017 school years. Reimbursement for Parents’ expense in sending Student to a
private parochial school during the regular school
year is reasonable under the facts of this case.
Student did not prove she required extended school
year services, therefore reimbursement does not
include the amount Parents paid for extended
school year. Reimbursement also does not include
$35 paid on November 2, 2015, for a fundraiser, or
$596 paid during the 2016-2017 school year that
was not accounted for.
7.
An independent educational evaluation at public expense may also be awarded as an
equitable remedy if necessary to grant appropriate

A-61
relief to a party. (Los Angeles Unified School Dist. v.
D.L. (C.D. Cal. 2008) 548 F.Supp.2d 815, 822-823.)
8.
Student also requests independent
educational evaluations in all areas in which
District should have assessed as part of the
triennial
assessment.
Student
specifically
requested psychoeducational, speech and language,
occupational therapy, behavior, central auditory
processing, and assistive technology independent
educational evaluations. District should have
conducted Student’s triennial assessment in 2015.
District did not do so. District did not offer an
assessment plan to Parents until February 15,
2017, which they signed. District identified
academic
achievement;
health;
intellectual
development; language and speech communication
development; motor development; social and
emotional; adaptive behavior; and post-secondary
transition as areas to be assessed; to date, District
still has not conducted the assessment. By
conditioning any assessment District conducted on
Student’s reenrollment in District, District violated
its obligations to Student and Parents under the
IDEA, as discussed above. Therefore, Student is
entitled to independent educational evaluations in
the areas of: psychoeducation; speech and language;
occupational therapy; and behavior, the areas
identified in the February 15, 2017 assessment
plan, Student did not prove she needed an assistive
technology evaluation or a central auditory
processing evaluation and those areas were not
listed on the assessment plan.

A-62
9.
Because of District’s failure to assess
it would not be equitable to require Parents to fund
Student’s tuition at her parochial school until the
independent educational evaluations are conducted
and District holds an IEP team meeting to make a
formal offer of FAPE. The District’s denial of FAPE
continues until it makes a formal FAPE offer with
updated present levels of performance based on
assessment information.
ORDER
1.
Within 45 days of this Decision,
District shall reimburse Parents for the cost of the
private parochial school from September 2015
through June 2017, in the amount of $9,137. No
further proof of payment is required as sufficient
proof was submitted at hearing.
2.
Upon receipt of proof of the number of
days Student actually attended the private
parochial school for the 2015-2016 and 2016-2017
regular school years, District shall reimburse
Parents for one round trip daily between Student’s
home and school, consisting of 9.58 miles, at the
2017 Internal Revenue Service standard rate of
$.53.5 per mile.
3.
District shall reimburse Parents for
Student’s tuition and mandatory fees at the private
parochial school and mileage for one round trip
daily between Student’s home and the private
parochial school through the 2017-2018 school year,
or until District holds an IEP team meeting to

A-63
develop a new IEP and makes an offer of FAPE to
Student, whichever occurs first.
4.
District shall immediately fund
independent educational evaluations for Student in
the areas of: psychoeducation; speech and language;
occupational therapy; and behavior.
5.
All of Student’s other requests for
relief are denied.
PREVAILING PARTY
Education Code section 56507, subdivision
(d), requires that this Decision indicate the extent
to which each party prevailed on each issue heard
and decided in this due process matter. Student
prevailed on all three issues.
RIGHT TO APPEAL
This is a final administrative decision, and
all parties are bound by it. Pursuant to Education
Code section 56506, subdivision (k), any party may
appeal this Decision to a court of competent
jurisdiction within 90 days of receipt.

A-64
Dated:

November 20, 2017
Docusign by:

Linda Johnson

LINDA JOHNSON
Administrative Law Judge
Office of Administrative Hearings

A-65
APPENDIX F
List of Authorities

Page

UNITED STATES CONSTITUTION
Amendment I ………………………………. 66
UNITED STATES CODES
20 U.S.C. § 1415 …………………………… 66
28 U.S.C. § 1291 …………………………… 96
28 U.S.C. § 1294 …………………………… 97
28 U.S.C. § 1331 …………………………… 98
CODE OF FEDERAL REGULATIONS
34 C.F.R. § 300.131 ……………………….. 98
34 C.F.R. § 300.146 ……………………….. 99
34 C.F.R. § 300.148 ……………………….. 100
34 C.F.R. § 300.341 ……………………….. 103
FEDERAL REGISTER
71 Fed. Reg. 46590 ……………………….. 103
71 Fed. Reg. 46591-92 ………………………..105
71 Fed. Reg. 46593 ……………………….. 106
CALIFORNIA EDUCATION CODES
Ed. Code § 56171 …………………………. 111
Ed. Code § 56172 …………………………. 111
Ed. Code § 56174 …………………………. 113
Ed. Code § 56175 …………………………. 113
Ed. Code § 56176 …………………………. 114
Ed. Code § 56505 …………………………. 115

A-66

UNITED STATES CONSTITUTION
Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably
to assemble, and to petition the Government for a
redress of grievances.
UNITED STATES CODES
20 U.S.C. § 1415
§1415. Procedural safeguards
(a) Establishment of procedures
Any State educational agency, State agency,
or local educational agency that receives assistance
under this subchapter shall establish and maintain
procedures in accordance with this section to
ensure that children with disabilities and their
parents are guaranteed procedural safeguards with
respect to the provision of a free appropriate public
education by such agencies.
(b) Types of procedures
The procedures required by this section shall
include the following:
(1) An opportunity for the parents of a child
with a disability to examine all records relating to
such child and to participate in meetings with
respect to the identification, evaluation, and
educational placement of the child, and the
provision of a free appropriate public education to

A-67
such child, and to obtain an independent
educational evaluation of the child.
(2) (A) Procedures to protect the rights of the
child whenever the parents of the child are not
known, the agency cannot, after reasonable efforts,
locate the parents, or the child is a ward of the
State, including the assignment of an individual to
act as a surrogate for the parents, which surrogate
shall not be an employee of the State educational
agency, the local educational agency, or any other
agency that is involved in the education or care of
the child. In the case of—
(i) a child who is a ward of the State, such
surrogate may alternatively be appointed by the
judge overseeing the child's care provided that the
surrogate meets the requirements of this
paragraph; and
(ii) an unaccompanied homeless youth as
defined in section 11434a(6) of title 42, the local
educational agency shall appoint a surrogate in
accordance with this paragraph.
(B) The State shall make reasonable efforts
to ensure the assignment of a surrogate not more
than 30 days after there is a determination by the
agency that the child needs a surrogate.
(3) Written prior notice to the parents of the
child, in accordance with subsection (c)(1),
whenever the local educational agency—
(A) proposes to initiate or change; or
(B) refuses to initiate or change, the identification, evaluation, or educational placement of the
child, or the provision of a free appropriate public
education to the child.
(4) Procedures designed to ensure that the

A-68
notice required by paragraph (3) is in the native
language of the parents, unless it clearly is not
feasible to do so.
(5) An opportunity for mediation, in accordance
with subsection (e).
(6) An opportunity for any party to present a
complaint—
(A) with respect to any matter relating to the
identification, evaluation, or educational placement
of the child, or the provision of a free appropriate
public education to such child; and
(B) which sets forth an alleged violation that
occurred not more than 2 years before the date the
parent or public agency knew or should have known
about the alleged action that forms the basis of the
complaint, or, if the State has an explicit time
limitation for presenting such a complaint under
this subchapter, in such time as the State law
allows, except that the exceptions to the timeline
described in subsection (f)(3)(D) shall apply to the
timeline described in this subparagraph.
(7) (A) Procedures that require either party, or
the attorney representing a party, to provide due
process complaint notice in accordance with
subsection (c)(2) (which shall remain confidential)—
(i) to the other party, in the complaint
filed under paragraph (6), and forward a copy of
such notice to the State educational agency; and
(ii) that shall include—
(I) the name of the child, the address
of the residence of the child (or available contact
information in the case of a homeless child), and
the name of the school the child is attending;
(II) in the case of a homeless child or

A-69
youth (within the meaning of section 11434a(2) of
title 42), available contact information for the child
and the name of the school the child is attending;
(III) a description of the nature of the
problem of the child relating to such proposed
initiation or change, including facts relating to such
problem; and
(IV) a proposed resolution of the
problem to the extent known and available to the
party at the time.
(B) A requirement that a party may not have
a due process hearing until the party, or the
attorney representing the party, files a notice that
meets the requirements of subparagraph (A)(ii).
(8) Procedures that require the State
educational agency to develop a model form to
assist parents in filing a complaint and due process
complaint notice in accordance with paragraphs (6)
and (7), respectively.
(c) Notification requirements
(1) Content of prior written notice
The notice required by subsection (b)(3) shall
include—
(A) a description of the action proposed or
refused by the agency;
(B) an explanation of why the agency
proposes or refuses to take the action and a
description of each evaluation procedure, assessment, record, or report the agency used as a basis
for the proposed or refused action;
(C) a statement that the parents of a child
with a disability have protection under the
procedural safeguards of this subchapter and, if
this notice is not an initial referral for evaluation,

A-70
the means by which a copy of a description of the
procedural safeguards can be obtained;
(D) sources for parents to contact to obtain
assistance in understanding the provisions of this
subchapter;
(E) a description of other options considered
by the IEP Team and the reason why those options
were rejected; and
(F) a description of the factors that are
relevant to the agency's proposal or refusal.
(2) Due process complaint notice
(A) Complaint
The due process complaint notice required
under subsection (b)(7)(A) shall be deemed to be
sufficient unless the party receiving the notice
notifies the hearing officer and the other party in
writing that the receiving party believes the notice
has not met the requirements of subsection
(b)(7)(A).
(B) Response to complaint
(i) Local educational agency
response
(I) In general
If the local educational agency has not sent a
prior written notice to the parent regarding the
subject matter contained in the parent's due
process complaint notice, such local educational
agency shall, within 10 days of receiving the
complaint, send to the parent a response that shall
include—
(aa) an explanation of why the agency
proposed or refused to take the action raised in the
complaint;
(bb) a description of other options that

A-71
the IEP Team considered and the reasons why
those options were rejected;
(cc) a description of each evaluation
procedure, assessment, record, or report the agency
used as the basis for the proposed or refused action;
and
(dd) a description of the factors that
are relevant to the agency's proposal or refusal.
(II) Sufficiency
A response filed by a local educational
agency pursuant to subclause (I) shall not be
construed to preclude such local educational agency
from asserting that the parent's due process complaint notice was insufficient where appropriate.
(ii) Other party response
Except
as
provided
in
clause
(i),
the
non-complaining party shall, within 10 days of
receiving the complaint, send to the complaint a
response that specifically addresses the issues
raised in the complaint.
(C) Timing
The party providing a hearing officer
notification under subparagraph (A) shall provide
the notification within 15 days of receiving the
complaint.
(D) Determination
Within 5 days of receipt of the notification
provided under subparagraph (C), the hearing
officer shall make a determination on the face of
the notice of whether the notification meets the
requirements of subsection (b)(7)(A), and shall
immediately notify the parties in writing of such
determination.
(E) Amended complaint notice

A-72
(i) In general
A party may amend its due process
complaint notice only if—
(I) the other party consents in writing
to such amendment and is given the opportunity to
resolve the complaint through a meeting held
pursuant to subsection (f)(1)(B); or
(II) the hearing officer grants
permission, except that the hearing officer may
only grant such permission at any time not later
than 5 days before a due process hearing occurs.
(ii) Applicable timeline
The applicable timeline for a due process
hearing under this subchapter shall recommence at
the time the party files an amended notice,
including the timeline under subsection (f)(1)(B).
(d) Procedural safeguards notice
(1) In general
(A) Copy to parents
A copy of the procedural safeguards available
to the parents of a child with a disability shall be
given to the parents only 1 time a year, except that
a copy also shall be given to the parents—
(i) upon initial referral or parental
request for evaluation;
(ii) upon the first occurrence of the
filing of a complaint under subsection (b)(6); and
(iii) upon request by a parent.
(B) Internet website
A local educational agency may place a
current copy of the procedural safeguards notice on
its Internet website if such website exists.
(2) Contents
The procedural safeguards notice shall

A-73
include a full explanation of the procedural
safeguards, written in the native language of the
parents (unless it clearly is not feasible to do so)
and written in an easily understandable manner,
available under this section and under regulations
promulgated by the Secretary relating to—
(A) independent educational evaluation;
(B) prior written notice;
(C) parental consent;
(D) access to educational records;
(E) the opportunity to present and resolve
complaints, including—
(i) the time period in which to make a
complaint;
(ii) the opportunity for the agency to
resolve the complaint; and
(iii) the availability of mediation;
(F) the child's placement during pendency of
due process proceedings;
(G) procedures for students who are subject
to placement in an interim alternative educational
setting;
(H) requirements for unilateral placement by
parents of children in private schools at public
expense;
(I) due process hearings, including requirements for disclosure of evaluation results and
recommendations;
(J) State-level appeals (if applicable in that
State);
(K) civil actions, including the time period in
which to file such actions; and
(L) attorneys’ fees.
(e) Mediation

A-74
(1) In general
Any State educational agency or local
educational agency that receives assistance under
this subchapter shall ensure that procedures are
established and implemented to allow parties to
disputes involving any matter, including matters
arising prior to the filing of a complaint pursuant to
subsection (b)(6), to resolve such disputes through a
mediation process.
(2) Requirements
Such procedures shall meet the following
requirements:
(A) The procedures shall ensure that the
mediation process—
(i) is voluntary on the part of the parties;
(ii) is not used to deny or delay a parent's
right to a due process hearing under subsection (f),
or to deny any other rights afforded under this
subchapter; and
(iii) is conducted by a qualified and
impartial mediator who is trained in effective
mediation techniques.
(B) Opportunity to meet with a disinterested
party.—A local educational agency or a State
agency may establish procedures to offer to parents
and schools that choose not to use the mediation
process, an opportunity to meet, at a time and
location convenient to the parents, with a
disinterested party who is under contract with—
(i) a parent training and information
center or community parent resource center in the
State established under section 1471 or 1472 of this
title; or

A-75
(ii) an appropriate alternative dispute
resolution entity, to encourage the use, and explain
the benefits, of the mediation process to the
parents.
(C) List of qualified mediators.—The State
shall maintain a list of individuals who are
qualified mediators and knowledgeable in laws and
regulations relating to the provision of special
education and related services.
(D) Costs.—The State shall bear the cost of
the mediation process, including the costs of
meetings described in subparagraph (B).
(E) Scheduling and location.—Each session
in the mediation process shall be scheduled in a
timely manner and shall be held in a location that
is convenient to the parties to the dispute.
(F) Written agreement.—In the case that a
resolution is reached to resolve the complaint
through the mediation process, the parties shall
execute a legally binding agreement that sets forth
such resolution and that—
(i) states that all discussions that
occurred during the mediation process shall be
confidential and may not be used as evidence in any
subsequent due process hearing or civil proceeding;
(ii) is signed by both the parent and a
representative of the agency who has the authority
to bind such agency; and
(iii) is enforceable in any State court of
competent jurisdiction or in a district court of the
United States.
(G) Mediation discussions.—Discussions that
occur during the mediation process shall be
confidential and may not be used as evidence in any

A-76
subsequent due process hearing or civil proceeding.
(f) Impartial due process hearing
(1) In general
(A) Hearing
Whenever a complaint has been received
under subsection (b)(6) or (k), the parents or the
local educational agency involved in such complaint
shall have an opportunity for an impartial due
process hearing, which shall be conducted by the
State educational agency or by the local educational
agency, as determined by State law or by the State
educational agency.
(B) Resolution session
(i) Preliminary meeting
Prior to the opportunity for an impartial due
process hearing under subparagraph (A), the local
educational agency shall convene a meeting with
the parents and the relevant member or members
of the IEP Team who have specific knowledge of the
facts identified in the complaint—
(I) within 15 days of receiving notice of
the parents’ complaint;
(II) which shall include a representative of the agency who has decisionmaking
authority on behalf of such agency;
(III) which may not include an
attorney of the local educational agency unless the
parent is accompanied by an attorney; and
(IV) where the parents of the child
discuss their complaint, and the facts that form the
basis of the complaint, and the local educational
agency is provided the opportunity to resolve the
complaint, unless the parents and the local

A-77
educational agency agree in writing to waive such
meeting, or agree to use the mediation process
described in subsection (e).
(ii) Hearing
If the local educational agency has not
resolved the complaint to the satisfaction of the
parents within 30 days of the receipt of the
complaint, the due process hearing may occur, and
all of the applicable timelines for a due process
hearing under this subchapter shall commence.
(iii) Written settlement agreement
In the case that a resolution is reached to
resolve the complaint at a meeting described in
clause (i), the parties shall execute a legally binding
agreement that is—
(I) signed by both the parent and a
representative of the agency who has the authority
to bind such agency; and
(II) enforceable in any State court of
competent jurisdiction or in a district court of the
United States.
(iv) Review period
If the parties execute an agreement pursuant
to clause (iii), a party may void such agreement
within 3 business days of the agreement's
execution.
(2) Disclosure of evaluations and recommendations
(A) In general
Not less than 5 business days prior to a
hearing conducted pursuant to paragraph (1), each
party shall disclose to all other parties all
evaluations completed by that date, and
recommendations based on the offering party's

A-78
evaluations, that the party intends to use at the
hearing.
(B) Failure to disclose
A hearing officer may bar any party that fails
to comply with subparagraph (A) from introducing
the relevant evaluation or recommendation at the
hearing without the consent of the other party.
(3) Limitations on hearing
(A) Person conducting hearing
A hearing officer conducting a hearing
pursuant to paragraph (1)(A) shall, at a
minimum—
(i) not be—
(I) an employee of the State
educational agency or the local educational agency
involved in the education or care of the child; or
(II) a person having a personal or
professional interest that conflicts with the person's
objectivity in the hearing;
(ii) possess knowledge of, and the ability
to understand, the provisions of this chapter,
Federal and State regulations pertaining to this
chapter, and legal interpretations of this chapter by
Federal and State courts;
(iii) possess the knowledge and ability to
conduct hearings in accordance with appropriate,
standard legal practice; and
(iv) possess the knowledge and ability to
render and write decisions in accordance with
appropriate, standard legal practice.
(B) Subject matter of hearing
The party requesting the due process hearing
shall not be allowed to raise issues at the due
process hearing that were not raised in the notice

A-79
filed under subsection (b)(7), unless the other party
agrees otherwise.
(C) Timeline for requesting hearing
A parent or agency shall request an
impartial due process hearing within 2 years of the
date the parent or agency knew or should have
known about the alleged action that forms the basis
of the complaint, or, if the State has an explicit
time limitation for requesting such a hearing under
this subchapter, in such time as the State law
allows.
(D) Exceptions to the timeline
The timeline described in subparagraph (C)
shall not apply to a parent if the parent was
prevented from requesting the hearing due to—
(i) specific misrepresentations by the local
educational agency that it had resolved the problem
forming the basis of the complaint; or
(ii) the local educational agency's
withholding of information from the parent that
was required under this subchapter to be provided
to the parent.
(E) Decision of hearing officer
(i) In general
Subject to clause (ii), a decision made by a
hearing officer shall be made on substantive
grounds based on a determination of whether the
child received a free appropriate public education.
(ii) Procedural issues
In matters alleging a procedural violation, a
hearing officer may find that a child did not receive
a free appropriate public education only if the
procedural inadequacies—
(I) impeded the child's right to a free

A-80
appropriate public education;
(II) significantly impeded the parents’
opportunity to participate in the decisionmaking
process regarding the provision of a free appropriate public education to the parents’ child; or
(III) caused a deprivation of educational benefits.
(iii) Rule of construction
Nothing in this subparagraph shall be
construed to preclude a hearing officer from
ordering a local educational agency to comply with
procedural requirements under this section.
(F) Rule of construction
Nothing in this paragraph shall be construed
to affect the right of a parent to file a complaint
with the State educational agency.
(g) Appeal
(1) In general
If the hearing required by subsection (f) is
conducted by a local educational agency, any party
aggrieved by the findings and decision rendered in
such a hearing may appeal such findings and
decision to the State educational agency.
(2) Impartial review and independent
decision
The State educational agency shall conduct
an impartial review of the findings and decision
appealed under paragraph (1). The officer
conducting such review shall make an independent
decision upon completion of such review.
(h) Safeguards
Any party to a hearing conducted pursuant
to subsection (f) or (k), or an appeal conducted
pursuant to subsection (g), shall be accorded—

A-81
(1) the right to be accompanied and advised by
counsel and by individuals with special knowledge
or training with respect to the problems of children
with disabilities;
(2) the right to present evidence and confront,
cross-examine, and compel the attendance of
witnesses;
(3) the right to a written, or, at the option of the
parents, electronic verbatim record of such hearing;
and
(4) the right to written, or, at the option of the
parents, electronic findings of fact and decisions,
which findings and decisions—
(A) shall be made available to the public
consistent with the requirements of section 1417(b)
of this title (relating to the confidentiality of data,
information, and records); and
(B) shall be transmitted to the advisory panel
established pursuant to section 1412(a)(21) of this
title.
(i) Administrative procedures
(1) In general
(A) Decision made in hearing
A decision made in a hearing conducted
pursuant to subsection (f) or (k) shall be final,
except that any party involved in such hearing may
appeal such decision under the provisions of
subsection (g) and paragraph (2).
(B) Decision made at appeal
A decision made under subsection (g) shall be
final, except that any party may bring an action
under paragraph (2).
(2) Right to bring civil action
(A) In general

A-82
Any party aggrieved by the findings and
decision made under subsection (f) or (k) who does
not have the right to an appeal under subsection
(g), and any party aggrieved by the findings and
decision made under this subsection, shall have the
right to bring a civil action with respect to the
complaint presented pursuant to this section, which
action may be brought in any State court of
competent jurisdiction or in a district court of the
United States, without regard to the amount in
controversy.
(B) Limitation
The party bringing the action shall have 90
days from the date of the decision of the hearing
officer to bring such an action, or, if the State has
an explicit time limitation for bringing such action
under this subchapter, in such time as the State
law allows.
(C) Additional requirements
In any action brought under this paragraph,
the court—
(i) shall receive the records of the
administrative proceedings;
(ii) shall hear additional evidence at the
request of a party; and
(iii) basing its decision on the preponderance of the evidence, shall grant such relief as
the court determines is appropriate.
(3)
Jurisdiction
of
district
courts;
attorneys’ fees
(A) In general
The district courts of the United States shall
have jurisdiction of actions brought under this
section without regard to the amount in

A-83
controversy.
(B) Award of attorneys’ fees
(i) In general
In any action or proceeding brought under
this section, the court, in its discretion, may award
reasonable attorneys’ fees as part of the costs—
(I) to a prevailing party who is the
parent of a child with a disability;
(II) to a prevailing party who is a State
educational agency or local educational agency
against the attorney of a parent who files a
complaint or subsequent cause of action that is
frivolous, unreasonable, or without foundation, or
against the attorney of a parent who continued to
litigate after the litigation clearly became frivolous,
unreasonable, or without foundation; or
(III) to a prevailing State educational
agency or local educational agency against the
attorney of a parent, or against the parent, if the
parent's complaint or subsequent cause of action
was presented for any improper purpose, such as to
harass, to cause unnecessary delay, or to needlessly
increase the cost of litigation.
(ii) Rule of construction
Nothing in this subparagraph shall be
construed to affect section 327 of the District of
Columbia Appropriations Act, 2005.
(C) Determination of amount of
attorneys’ fees
Fees awarded under this paragraph shall be
based on rates prevailing in the community in
which the action or proceeding arose for the kind
and quality of services furnished. No bonus or

A-84
multiplier may be used in calculating the fees
awarded under this subsection.
(D) Prohibition of attorneys’ fees and
related costs for certain services
(i) In general
Attorneys’ fees may not be awarded and
related costs may not be reimbursed in any action
or proceeding under this section for services
performed subsequent to the time of a written offer
of settlement to a parent if—
(I) the offer is made within the time
prescribed by Rule 68 of the Federal Rules of Civil
Procedure or, in the case of an administrative
proceeding, at any time more than 10 days before
the proceeding begins;
(II) the offer is not accepted within 10
days; and
(III) the court or administrative
hearing officer finds that the relief finally obtained
by the parents is not more favorable to the parents
than the offer of settlement.
(ii) IEP Team meetings
Attorneys’ fees may not be awarded relating
to any meeting of the IEP Team unless such
meeting is convened as a result of an
administrative proceeding or judicial action, or, at
the discretion of the State, for a mediation described in subsection (e).
(iii) Opportunity to resolve
complaints
A meeting conducted pursuant to subsection
(f)(1)(B)(i) shall not be considered—
(I) a meeting convened as a result of
an administrative hearing or judicial action; or

A-85
(II) an administrative hearing or
judicial action for purposes of this paragraph.
(E) Exception to prohibition on
attorneys’ fees and related costs
Notwithstanding subparagraph (D), an
award of attorneys’ fees and related costs may be
made to a parent who is the prevailing party and
who was substantially justified in rejecting the
settlement offer.
(F) Reduction in amount of attorneys’
fees
Except as provided in subparagraph (G),
whenever the court finds that—
(i) the parent, or the parent's attorney,
during the course of the action or proceeding,
unreasonably protracted the final resolution of the
controversy;
(ii) the amount of the attorneys’ fees
otherwise authorized to be awarded unreasonably
exceeds the hourly rate prevailing in the
community for similar services by attorneys of
reasonably comparable skill, reputation, and
experience;
(iii) the time spent and legal services
furnished were excessive considering the nature of
the action or proceeding; or
(iv) the attorney representing the parent
did not provide to the local educational agency the
appropriate information in the notice of the
complaint described in subsection (b)(7)(A), the
court shall reduce, accordingly, the amount of the
attorneys’ fees awarded under this section.
(G) Exception to reduction in amount of
attorneys’ fees

A-86
The provisions of subparagraph (F) shall not
apply in any action or proceeding if the court finds
that the State or local educational agency
unreasonably protracted the final resolution of the
action or proceeding or there was a violation of this
section.
(j) Maintenance of current educational
placement
Except as provided in subsection (k)(4),
during the pendency of any proceedings conducted
pursuant to this section, unless the State or local
educational agency and the parents otherwise
agree, the child shall remain in the then-current
educational placement of the child, or, if applying
for initial admission to a public school, shall, with
the consent of the parents, be placed in the public
school program until all such proceedings have
been completed.
(k) Placement in alternative educational
setting
(1) Authority of school personnel
(A) Case-by-case determination
School personnel may consider any unique
circumstances on a case-by-case basis when
determining whether to order a change in
placement for a child with a disability who violates
a code of student conduct.
(B) Authority
School personnel under this subsection may
remove a child with a disability who violates a code
of student conduct from their current placement to
an appropriate interim alternative educational
setting, another setting, or suspension, for not more
than 10 school days (to the extent such alternatives

A-87
are applied to children without disabilities).
(C) Additional authority
If school personnel seek to order a change in
placement that would exceed 10 school days and
the behavior that gave rise to the violation of the
school code is determined not to be a manifestation
of the child's disability pursuant to subparagraph
(E), the relevant disciplinary procedures applicable
to children without disabilities may be applied to
the child in the same manner and for the same
duration in which the procedures would be applied
to children without disabilities, except as provided
in section 1412(a)(1) of this title although it may be
provided in an interim alternative educational
setting.
(D) Services
A child with a disability who is removed from
the child's current placement under subparagraph
(G) (irrespective of whether the behavior is
determined to be a manifestation of the child's
disability) or subparagraph (C) shall—
(i) continue to receive educational
services, as provided in section 1412(a)(1) of this
title, so as to enable the child to continue to
participate in the general education curriculum,
although in another setting, and to progress toward
meeting the goals set out in the child's IEP; and
(ii) receive, as appropriate, a func- tional
behavioral assessment, behavioral intervention
services and modifications, that are designed to
address the behavior violation so that it does not
recur.
(E) Manifestation determination

A-88
(i) In general
Except as provided in subparagraph (B),
within 10 school days of any decision to change the
placement of a child with a disability because of a
violation of a code of student conduct, the local
educational agency, the parent, and relevant
members of the IEP Team (as determined by the
parent and the local educational agency) shall
review all relevant information in the student's file,
including the child's IEP, any teacher observations,
and any relevant information provided by the
parents to determine—
(I) if the conduct in question was
caused by, or had a direct and substantial
relationship to, the child's disability; or
(II) if the conduct in question was the
direct result of the local educational agency's
failure to implement the IEP.
(ii) Manifestation
If the local educational agency, the parent,
and relevant members of the IEP Team determine
that either subclause (I) or (II) of clause (i) is
applicable for the child, the conduct shall be
determined to be a manifestation of the child's
disability.
(F) Determination that behavior was a
manifestation
If the local educational agency, the parent,
and relevant members of the IEP Team make the
determination
that
the
conduct
was
a
manifestation of the child's disability, the IEP
Team shall—
(i) conduct a functional behavioral
assessment, and implement a behavioral interven-

A-89
tion plan for such child, provided that the local
educational agency had not conducted such
assessment prior to such determination before the
behavior that resulted in a change in placement
described in subparagraph (C) or (G);
(ii) in the situation where a behavioral
intervention plan has been developed, review the
behavioral intervention plan if the child already
has such a behavioral intervention plan, and
modify it, as necessary, to address the behavior;
and
(iii) except as provided in subparagraph
(G), return the child to the placement from which
the child was removed, unless the parent and the
local educational agency agree to a change of
placement as part of the modification of the
behavioral intervention plan.
(G) Special circumstances
School personnel may remove a student to an
interim alternative educational setting for not more
than 45 school days without regard to whether the
behavior is determined to be a manifestation of the
child's disability, in cases where a child—
(i) carries or possesses a weapon to or at
school, on school premises, or to or at a school
function under the jurisdiction of a State or local
educational agency;
(ii) knowingly possesses or uses illegal
drugs, or sells or solicits the sale of a controlled
substance, while at school, on school premises, or at
a school function under the jurisdiction of a State or
local educational agency; or
(iii) has inflicted serious bodily injury
upon another person while at school, on school

A-90
premises, or at a school function under the
jurisdiction of a State or local educational agency.
(H) Notification
Not later than the date on which the decision
to take disciplinary action is made, the local
educational agency shall notify the parents of that
decision, and of all procedural safeguards accorded
under this section.
(2) Determination of setting
The interim alternative educational setting
in subparagraphs (C) and (G) of paragraph (1) shall
be determined by the IEP Team.
(3) Appeal
(A) In general
The parent of a child with a disability who
disagrees with any decision regarding placement, or
the manifestation determination under this
subsection, or a local educational agency that
believes that maintaining the current placement of
the child is substantially likely to result in injury to
the child or to others, may request a hearing.
(B) Authority of hearing officer
(i) In general
A hearing officer shall hear, and make a
determination regarding, an appeal requested
under subparagraph (A).
(ii) Change of placement order
In making the determination under clause
(i), the hearing officer may order a change in
placement of a child with a disability. In such
situations, the hearing officer may—
(I) return a child with a disability to
the placement from which the child was removed;
or

A-91
(II) order a change in placement of a
child with a disability to an appropriate interim
alternative educational setting for not more than 45
school days if the hearing officer determines that
maintaining the current placement of such child is
substantially likely to result in injury to the child
or to others.
(4) Placement during appeals
When an appeal under paragraph (3) has
been requested by either the parent or the local
educational agency—
(A) the child shall remain in the interim
alternative educational setting pending the decision
of the hearing officer or until the expiration of the
time period provided for in paragraph (1)(C),
whichever occurs first, unless the parent and the
State or local educational agency agree otherwise;
and
(B) the State or local educational agency
shall arrange for an expedited hearing, which shall
occur within 20 school days of the date the hearing
is requested and shall result in a determination
within 10 school days after the hearing.
(5) Protections for children not yet
eligible for special education and related
services
(A) In general
A child who has not been determined to be
eligible for special education and related services
under this subchapter and who has engaged in
behavior that violates a code of student conduct,
may assert any of the protections provided for in
this subchapter if the local educational agency had
knowledge (as determined in accordance with this

A-92
paragraph) that the child was a child with a
disability before the behavior that precipitated the
disciplinary action occurred.
(B) Basis of knowledge
A local educational agency shall be deemed
to have knowledge that a child is a child with a
disability if, before the behavior that precipitated
the disciplinary action occurred—
(i) the parent of the child has expressed
concern in writing to supervisory or administrative
personnel of the appropriate educational agency, or
a teacher of the child, that the child is in need of
special education and related services;
(ii) the parent of the child has requested
an evaluation of the child pursuant to section
1414(a)(1)(B) of this title; or
(iii) the teacher of the child, or other
personnel of the local educational agency, has
expressed specific concerns about a pattern of
behavior demonstrated by the child, directly to the
director of special education of such agency or to
other supervisory personnel of the agency.
(C) Exception
A local educational agency shall not be
deemed to have knowledge that the child is a child
with a disability if the parent of the child has not
allowed an evaluation of the child pursuant to
section 1414 of this title or has refused services
under this subchapter or the child has been
evaluated and it was determined that the child was
not a child with a disability under this subchapter.
(D) Conditions that apply if no basis of
knowledge
(i) In general

A-93
If a local educational agency does not have
knowledge that a child is a child with a disability
(in accordance with subparagraph (B) or (C)) prior
to taking disciplinary measures against the child,
the child may be subjected to disciplinary measures
applied to children without disabilities who
engaged in comparable behaviors consistent with
clause (ii).
(ii) Limitations
If a request is made for an evaluation of a
child during the time period in which the child is
subjected to disciplinary measures under this
subsection, the evaluation shall be conducted in an
expedited manner. If the child is determined to be a
child with a disability, taking into consideration
information from the evaluation conducted by the
agency and information provided by the parents,
the agency shall provide special education and
related services in accordance with this subchapter,
except that, pending the results of the evaluation,
the child shall remain in the educational placement
determined by school authorities.
(6) Referral to and action by law
enforcement and judicial authorities
(A) Rule of construction
Nothing in this subchapter shall be
construed to prohibit an agency from reporting a
crime committed by a child with a disability to
appropriate authorities or to prevent State law
enforcement and judicial authorities from
exercising their responsi- bilities with regard to the
application of Federal and State law to crimes
committed by a child with a disability.
(B) Transmittal of records

A-94
An agency reporting a crime committed by a
child with a disability shall ensure that copies of
the special education and disciplinary records of the
child are transmitted for consideration by the
appropriate authorities to whom the agency reports
the crime.
(7) Definitions
In this subsection:
(A) Controlled substance
The term “controlled substance” means a
drug or other substance identified under schedule I,
II, III, IV, or V in section 202(c) of the Controlled
Substances Act (21 U.S.C. 812(c)).
(B) Illegal drug
The term “illegal drug” means a controlled
substance but does not include a controlled
substance that is legally possessed or used under
the supervision of a licensed health-care
professional or that is legally possessed or used
under any other authority under that Act [21
U.S.C. 801 et seq.] or under any other provision of
Federal law.
(C) Weapon
The term “weapon” has the meaning given
the term “dangerous weapon” under section
930(g)(2) of title 18.
(D) Serious bodily injury
The term “serious bodily injury” has the
meaning given the term “serious bodily injury”
under paragraph (3) of subsection (h) of section
1365 of title 18.
(l) Rule of construction
Nothing in this chapter shall be construed to
restrict or limit the rights, procedures, and

A-95
remedies available under the Constitution, the
Americans with Disabilities Act of 1990 [42 U.S.C.
12101 et seq.], title V of the Rehabilitation Act of
1973 [29 U.S.C. 790 et seq.], or other Federal laws
protecting the rights of children with disabilities,
except that before the filing of a civil action under
such laws seeking relief that is also available under
this subchapter, the procedures under sub- sections
(f) and (g) shall be exhausted to the same extent as
would be required had the action been brought
under this subchapter.
(m) Transfer of parental rights at age of
majority
(1) In general
A State that receives amounts from a grant
under this subchapter may provide that, when a
child with a disability reaches the age of majority
under State law (except for a child with a disability
who has been determined to be incompetent under
State law)—
(A) the agency shall provide any notice
required by this section to both the individual and
the parents;
(B) all other rights accorded to parents under
this subchapter transfer to the child;
(C) the agency shall notify the individual and
the parents of the transfer of rights; and
(D) all rights accorded to parents under this
subchapter transfer to children who are
incarcerated in an adult or juvenile Federal, State,
or local correctional institution.
(2) Special rule
If, under State law, a child with a disability
who has reached the age of majority under State

A-96
law, who has not been determined to be
incompetent, but who is determined not to have the
ability to provide informed consent with respect to
the educational program of the child, the State
shall establish procedures for appointing the parent
of the child, or if the parent is not available,
another appropriate individual, to represent the
educational interests of the child throughout the
period of eligibility of the child under this
subchapter.
(n) Electronic mail
A parent of a child with a disability may elect
to receive notices required under this section by an
electronic mail (e-mail) communication, if the
agency makes such option available.
(o) Separate complaint
Nothing in this section shall be construed to
preclude a parent from filing a separate due process
complaint on an issue separate from a due process
complaint already filed.
(Pub. L. 91–230, title VI, §615, as added Pub. L.
108–446, title I, §101, Dec. 3, 2004, 118 Stat. 2715.)
28 U.S.C. § 1291
§1291. Final decisions of district courts
The courts of appeals (other than the United
States Court of Appeals for the Federal Circuit)
shall have jurisdiction of appeals from all final
decisions of the district courts of the United States,
the United States District Court for the District of
the Canal Zone, the District Court of Guam, and
the District Court of the Virgin Islands, except
where a direct review may be had in the Supreme

A-97
Court. The jurisdiction of the United States Court
of Appeals for the Federal Circuit shall be limited
to the jurisdiction described in sections 1292(c) and
(d) and 1295 of this title.
(June 25, 1948, ch. 646, 62 Stat. 929; Oct. 31, 1951,
ch. 655, §48, 65 Stat. 726; Pub. L. 85–508, §12(e),
July 7, 1958, 72 Stat. 348; Pub. L. 97–164, title I,
§124, Apr. 2, 1982, 96 Stat. 36.)
28 U.S.C. § 1294
§1294. Circuits in which decisions reviewable
Except as provided in sections 1292(c),
1292(d), and 1295 of this title, appeals from
reviewable decisions of the district and territorial
courts shall be taken to the courts of appeals as
follows:
(1) From a district court of the United States to
the court of appeals for the circuit embracing the
district;
(2) From the United States District Court for the
District of the Canal Zone, to the Court of Appeals
for the Fifth Circuit;
(3) From the District Court of the Virgin
Islands, to the Court of Appeals for the Third
Circuit;
(4) From the District Court of Guam, to the
Court of Appeals for the Ninth Circuit.
(June 25, 1948, ch. 646, 62 Stat. 930; Oct. 31, 1951,
ch. 655, §50(a), 65 Stat. 727; Pub. L. 85–508, §12(g),
July 7, 1958, 72 Stat. 348; Pub. L. 86–3, §14(c),
Mar. 18, 1959, 73 Stat. 10; Pub. L. 87–189, §5, Aug.
30, 1961, 75 Stat. 417; Pub. L. 95–598, title II, §237,

A-98
Nov. 6, 1978, 92 Stat. 2667; Pub. L. 97–164, title I,
§126, Apr. 2, 1982, 96 Stat. 37.)
28 U.S.C. § 1331
§1331. Federal question
The district courts shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.
(June 25, 1948, ch. 646, 62 Stat. 930; Pub. L.
85–554, §1, July 25, 1958, 72 Stat. 415; Pub. L.
94–574, §2, Oct. 21, 1976, 90 Stat. 2721; Pub. L.
96–486, §2(a), Dec. 1, 1980, 94 Stat. 2369.)
CODE OF FEDERAL REGULATIONS
34 C.F.R. § 300.131
§ 300.131 Child find for parentally-placed
private school children with disabilities.
(a) General. Each LEA must locate, identify,
and evaluate all children with disabilities who are
enrolled by their parents in private, including
religious, elementary schools and secondary schools
located in the school district served by the LEA, in
accordance with paragraphs (b) through (e) of this
section, and §§300.111 and 300.201.
(b) Child find design. The child find process
must be designed to ensure— (1) The equitable
participation of parentally- placed private school
children; and (2) An accurate count of those
children.
(c) Activities. In carrying out the
requirements of this section, the LEA, or, if

A-99
applicable, the SEA, must undertake activities
similar to the activities under- taken for the
agency’s public school children.
(d) Cost. The cost of carrying out the child
find requirements in this section, including
individual evaluations, may not be considered in
determining if an LEA has met its obligation under
§300.133.
(e) Completion period. The child find process
must be completed in a time period comparable to
that for students attending public schools in the
LEA consistent with §300.301.
(f) Out-of-State children. Each LEA in which
private, including religious, elementary schools and
secondary schools are located must, in carrying out
the child find requirements in this section, include
parentally-placed private school children who
reside in a State other than the State in which the
private schools that they attend are located.
(Approved by the Office of Management and Budget
under control number 1820–0030) (Authority: 20
U.S.C. 1412(a)(10)(A)(ii))
34 C.F.R. § 300.146
§ 300.146 State educational agency responsibility.
Each SEA must ensure that a child with a
disability who is placed in or referred to a private
school or facility by a public agency—
(a) Is provided special education and related
services—
(1) In conformance with an IEP that
meets the requirements of §§300.320 through

A-100
300.325; and
(2) At no cost to the parents;
(b) Is provided an education that meets the
standards that apply to education provided by the
SEA and LEAs including the requirements of this
part, except for §300.156(c); and
(c) Has all of the rights of a child with a
disability who is served by a public agency.
(Approved by the Office of Management and Budget
under control number 1820–0030) (Authority: 20
U.S.C. 1412(a)(10)(B)) [71 FR 46753, Aug. 14, 2006,
as amended at 82 FR 29759, June 30, 2017]
34 C.F.R. § 300.148
§  300.148 Placement of children by parents
when FAPE is at issue.
(a) General. This part does not require an LEA
to pay for the cost of education, including special
education and related services, of a child with a
disability at a private school or facility if that
agency made FAPE available to the child and the
parents elected to place the child in a private school
or facility. However, the public agency must include
that child in the population whose needs are
addressed consistent with §§ 300.131 through
300.144.
(b) Disagreements about FAPE. Disagreements
between the parents and a public agency regarding
the availability of a program appropriate for the
child, and the question of financial reimbursement,
are subject to the due process procedures in
§§ 300.504 through 300.520.
(c) Reimbursement for private school place-

A-101

ment. If the parents of a child with a disability, who
previously received special education and related
services under the authority of a public agency,
enroll the child in a private preschool, elementary
school, or secondary school without the consent of
or referral by the public agency, a court or a
hearing officer may require the agency to reimburse
the parents for the cost of that enrollment if the
court or hearing officer finds that the agency had
not made FAPE available to the child in a timely
manner prior to that enrollment and that the
private placement is appropriate. A parental
placement may be found to be appropriate by a
hearing officer or a court even if it does not meet
the State standards that apply to education
provided by the SEA and LEAs.
(d) Limitation on reimbursement. The cost of
reimbursement described in paragraph (c) of this
section may be reduced or denied—
(1) If—
(i) At the most recent IEP Team meeting
that the parents attended prior to removal of the
child from the public school, the parents did not
inform the IEP Team that they were rejecting the
placement proposed by the public agency to provide
FAPE to their child, including stating their
concerns and their intent to enroll their child in a
private school at public expense; or
(ii) At least ten (10) business days
(including any holidays that occur on a business
day) prior to the removal of the child from the
public school, the parents did not give written
notice to the public agency of the information
described in paragraph (d)(1)(i) of this section;

A-102
(2) If, prior to the parents' removal of the
child from the public school, the public agency
informed the parents, through the notice
requirements described in § 300.503 (a)(1), of its
intent to evaluate the child (including a statement
of the purpose of the evaluation that was
appropriate and reasonable), but the parents did
not make the child available for the evaluation; or
(3) Upon a judicial finding of unreasonableness with respect to actions taken by the
parents.
(e) Exception. Notwithstanding the notice
requirement in paragraph (d)(1) of this section, the
cost of reimbursement—
(1) Must not be reduced or denied for failure
to provide the notice if—
(i) The school prevented the parents from
providing the notice;
(ii) The parents had not received notice,
pursuant to §  300.504, of the notice requirement in
paragraph (d)(1) of this section; or
(iii) Compliance with paragraph (d)(1) of
this section would likely result in physical harm to
the child; and
(2) May, in the discretion of the court or a
hearing officer, not be reduced or denied for failure
to provide this notice if—
(i) The parents are not literate or cannot
write in English; or
(ii) Compliance with paragraph (d)(1) of
this section would likely result in serious emotional
harm to the child.
(Approved by the Office of Management and Budget
under control number 1820-0030) (Authority: 20

A-103

U.S.C. 1412(a)(10)(C))
34 C.F.R. § 300.341
§ 300.341 State educational agency responsibility.
(a) Public agencies. The SEA shall ensure that
each public agency develops and implements an
IEP for each of its children with disabilities.
(b) Private schools and facilities. The SEA shall
ensure that an IEP is developed and implemented
for each child with a disability who— (1) Is placed
in or referred to a private school or facility by a
public agency; or (2) Is enrolled in a parochial
school or other private school and receives special
education or related services from a public agency.
(Authority: 20 U.S.C. 1412 (4), (6); 1413(a)(4))
(superseded)
FEDERAL REGISTER
71 Fed. Reg. 46590 (Excerpts)
Children in Private Schools
Children With Disabilities Enrolled by Their
Parents in Private Schools
General Comments
Comment:
Many comments were received
regarding the parentally-placed private school
children with disabilities requirements in

A-104
§§ 300.130 through 300.144. Many commenters
supported the changes to the regulations and
believed the regulations simplify the processes for
both private schools and public schools. Numerous
commenters, however, expressed concern regarding
the implementation of the private school
requirements.
Many of the commenters expressed concern with
the requirement that the LEAs where private
elementary schools and secondary schools are
located are now responsible for child find,
individual evaluations, and the provision of services
for children with disabilities enrolled by their
parents in private schools located in the LEA.
These commenters described the private school
provisions in the Act and the NPRM as burdensome
and difficult to understand.
Discussion: The revisions to the Act in 2004
significantly changed the obligation of States and
LEAs to children with disabilities enrolled by their
parents in private elementary schools and
secondary schools. Section 612(a)(10)(A) of the Act
now requires LEAs in which the private schools are
located, rather than the LEAs in which the parents
of such children reside, to conduct child find and
provide equitable services to parentally-placed
private school children with disabilities.

A-105
71 Fed. Reg. 46591-92 (Excerpts)
Child Find for Parentally-Placed Private School
Children With Disabilities (§ 300.131)
Comment: A few commenters recommended
permitting the LEA where private schools are
located to request reimbursement from the LEA
where the child resides for the cost of conducting an
individual evaluation, as may be required under
the child find requirements in § 300.131.
One commenter recommended that the LEA where
private schools are located be responsible for
locating and identifying children with disabilities
enrolled by their parents in private schools and the
LEA where the children reside be responsible for
conducting individual evaluations.
Discussion: Section 300.131, consistent with section
612(a)(10)(A)(i) of the Act, requires that the LEA
where private elementary schools and secondary
schools in which the child is enrolled are located,
not the LEA where the child resides, is responsible
for conducting child find, including an individual
evaluation for a child with a disability enrolled by
the child’s parent in a private elementary school or
secondary school located in the LEA. The Act
specifies that the LEA where the private schools
are located is responsible for conducting both the
child find process and the initial evaluation.

A-106
Therefore, the LEA where private schools are
located may not seek reimbursement from the LEA
of residence for the cost of conducting the
evaluation or to request that the LEA of residence
conduct the evaluation. However, the LEA where
the private elementary school or secondary school is
located has options as to how it meets its
responsibilities. For example, the LEA may assume
the responsibility itself, contract with another
public agency (including the public agency of
residence), or make other arrangements.
Changes: None.
71 Fed. Reg. 46593
Comment: A few commenters stated that
§ 300.131 does not address which LEA has the
responsibility for reevaluations. Discussion: The
LEA where the private schools are located is
responsible for conducting reevaluations of children
with disabilities enrolled by their parents in private
elementary schools and secondary schools located
within the LEA. Reevaluation is a part of the LEA’s
child find responsibility for parentally placed
private school children under section 612(a)(10)(A)
of the Act. Changes: None.
Comment:
One
commenter
expressed
concern that the regulations permit a parent to
request an evaluation from the LEA of residence at
the same time the child is being evaluated by the
LEA where the private elementary school or
secondary school is located, resulting in two LEAs

A-107
simultaneously conducting evaluations of the same
child. Discussion: We recognize that there could be
times when parents request that their parentallyplaced child be evaluated by different LEAs if the
child is attending a private school that is not in the
LEA in which they reside. For example, because
most States generally allocate the responsibility for
making FAPE available to the LEA in which the
child’s parents reside, and that could be a different
LEA from the LEA in which the child’s private
school is located, parents could ask two different
LEAs to evaluate their child for different purposes
at the same time. Although there is nothing in this
part that would prohibit parents from requesting
that their child be evaluated by the LEA
responsible for FAPE for purposes of having a
program of FAPE made available to the child at the
same time that the parents have requested that the
LEA where the private school is located evaluate
their child for purposes of considering the child for
equitable services, we do not encourage this
practice. We note that new § 300.622(b)(4) requires
parental consent for the release of information
about parentally-placed private school children
between LEAs; therefore, as a practical matter, one
LEA may not know that a parent also requested an
evaluation from another LEA. However, we do not
believe that the child’s best interests would be
well-served if the parents requested evaluations of
their child by the resident school district and the
LEA where the private school is located, even
though these evaluations are conducted for
different purposes. A practice of subjecting a child
to repeated testing by separate LEAs in close

A-108
proximity of time may not be the most effective or
desirable way of ensuring that the evaluation is a
meaningful measure of whether a child has a
disability or of providing an appropriate assessment of the child’s educational needs. Changes:
None.
Comment: Some commenters requested the
regulations clarify which LEA (the LEA of
residence or the LEA where the private elementary
schools or secondary schools are located) is
responsible for offering FAPE to children identified
through child find under § 300.131 so that parents
can make an informed decision regarding their
children’s education. Discussion: If a determination
is made by the LEA where the private school is
located that a child needs special education and
related services, the LEA where the child resides is
responsible for making FAPE available to the child.
If the parent makes clear his or her intention to
keep the child enrolled in the private elementary
school or secondary school located in another LEA,
the LEA where the child resides need not make
FAPE available to the child. We do not believe that
a change to the regulations is necessary, as
§ 300.201 already clarifies that the district of
residence is responsible for making FAPE available
to the child. Accordingly, the district in which the
private elementary or secondary school is located is
not responsible for making FAPE available to a
child residing in another district. Changes: None.
Comment:
One
commenter
requested
clarification of the term ‘‘activities similar’’ in
§ 300.131(c). Another commenter recommended
clarifying that these activities include, but are not

A-109
limited to, activities relating to evaluations and
reevaluations. One commenter requested that
children with disabilities parentally-placed in
private schools be identified and evaluated as
quickly as possible. Discussion: Section 300.131(c),
consistent with section 612(a)(10)(A)(ii)(III) of the
Act, requires that, in carrying out child find for
parentally-placed private school children, SEAs and
LEAs must undertake activities similar to those
activities undertaken for their publicly enrolled or
publicly-placed children. This would generally
include, but is not limited to, such activities as
widely distributing informational brochures,
providing regular public service announcements,
staffing exhibits at health fairs and other
community activities, and creating direct liaisons
with private schools. Activities for child find must
be completed in a time period comparable to those
activities for public school children. This means
that LEAs must conduct child find activities,
including individual evaluations, for parentallyplaced private school children within a reasonable
period of time and without undue delay, and may
not wait until after child find for public school
children is conducted. In addition, evaluations of all
children suspected of having disabilities under Part
B of the Act, regardless of whether they are
enrolled by their parents in private elementary
schools or secondary schools, must be conducted in
accordance with the requirements in §§ 300.300
through 300.311, consistent with section 614(a)
through (c) of the Act, which describes the
procedures for evaluations and reevaluations for all
children with disabilities. We believe the phrase

A-110
‘‘activities similar’’ is understood by SEAs and
LEAs and, therefore, it is not necessary to regulate
on the meaning of the phrase. Changes: None.
Provision of Services for Parentally Placed
Private School Children With Disabilities—Basic
Requirement (§ 300.132)
Comment: Several commenters expressed
confusion regarding which LEA is responsible for
paying for the equitable services provided to a
parentally-placed private elementary school or
secondary school child, the district of the child’s
residence or the LEA where the private school is
located. Discussion: We believe § 300.133,
consistent with section 612(a)(10)(A) of the Act, is
sufficiently clear that the LEA where the private
elementary schools and secondary schools are
located is responsible for paying for the equitable
services provided to a parentally-placed private
elementary school or secondary school child. These
provisions provide that the LEA where the private
elementary and secondary schools are located must
spend a proportionate amount of its Federal funds
available under Part B of the Act for services for
children with disabilities enrolled by their parents
in private elementary schools and secondary
schools located in the LEA. The Act does not permit
an exception to this requirement. No further
clarification is needed. Changes: None.

A-111
CALIFORNIA EDUCATION CODES
Ed. Code § 56171
Pursuant to Section 300.131 of Title 34 of the
Code of Federal Regulations, local educational
agencies shall locate, identify, and assess
all private school children with disabilities,
including religiously affiliated school age children,
who have disabilities and are in need of special
education and related services attending private
school in the service area of the local educational
agencies where the private school is located in
accordance with Section 56301. The activities
undertaken to carry out this responsibility for
private school children with disabilities shall be
comparable to activities undertaken in accordance
with Section 1412(a)(10)(A)(ii) of Title 20 of the
United States Code.
(Amended by Stats. 2007, Ch. 454, Sec. 12.
Effective October 10, 2007.)
Ed. Code § 56172
(a) The local educational agency shall make
provision for the participation of private school
children with disabilities in special education
programs under this part by providing them with
special education and related services in accordance
with the provisions of this article and Section
1412(a)(10)(A) of Title 20 of the United States Code
and Section 300.132 of Title 34 of the Code of
Federal Regulations.
(b) The local educational agency or, where
appropriate, the department, shall ensure timely

A-112
and meaningful consultation with private school
representatives and representatives of parents of
parentally placed private school children with
disabilities during the design and development of
special education and related services for the
children in accordance with Section 1412(a)(10)
(A)(iii) of Title 20 of the United States Code and
Section 300.134 of Title 34 of the Code of Federal
Regulations.
(c) When timely and meaningful consultation
as required in subdivision (b) has occurred, the
local educational agency shall obtain a written
affirmation signed by the representatives of participating private schools, and if the representatives
do not provide the affirmation within a reasonable
period of time, the local educational agency shall
forward the documentation of the consultation
process to the department in accordance with
Section 1412(a)(10)(A)(iv) of Title 20 of the United
States Code.
(d) A private school official shall have the
right, pursuant to Section 1412(a)(10) (A)(v) of Title
20 of the United States Code and Section 300.136 of
Title 34 of the Code of Federal Regulations, to
submit a complaint to the department that the local
educational agency did not engage in consultation
that was meaningful and timely or did not give due
consideration to the views of the private school
official.
(e) The provision of equitable services for
children enrolled in private schools by their parents
shall be provided by employees of a public agency,
as defined in Section 56028.5, or through contract
by the public agency with an individual,

A-113
association, agency, organization, or other entity.
(f) Special education and related services,
including materials and equipment, provided to a
pupil with a disability who has been parentally
placed in a private school shall be secular, neutral,
and nonideological, as required by Section 1412(a)
(10)(A)(vi) of Title 20 of the United States Code and
Section 300.138(c)(2) of Title 34 of the Code of
Federal Regulations.
(Amended by Stats. 2007, Ch. 56, Sec. 27. Effective
January 1, 2008.)
Ed. Code § 56174
The local educational agency shall not be
required to pay for the cost of education, including
special education and related services, of a child
with a disability at a private school or facility if the
local educational agency made a free appropriate
public education available to the child and the
parent of the child elected to place the child in the
private school or facility.
(Amended by Stats. 2007, Ch. 56, Sec. 28. Effective
January 1, 2008.)
Ed. Code § 56175
If a parent or guardian of an individual with
exceptional needs, who previously received special
education and related services under the authority
of the local educational agency, enrolls the child in
a private elementary or secondary school without
the consent of or referral by the local educational
agency, a court or a due process hearing officer may
require the local educational agency to reimburse
the parent or guardian for the cost of that

A-114
enrollment if the court or due process hearing
officer finds that the local educational agency had
not made a free appropriate public education
available to the child in a timely manner prior to
that enrollment in the private elementary or
secondary school and that the private placement is
appropriate, in accordance with Section 1412(a)(10)
(C)(ii) of Title 20 of the United States Code and
Section 300.148(c) of Title 34 of the Code of Federal
Regulations.
(Amended by Stats. 2007, Ch. 56, Sec. 30. Effective
January 1, 2008.)
Ed. Code § 56176
The cost of the reimbursement described in
Section 56175 may be reduced or denied pursuant
to clause (iii) of subparagraph (C) of paragraph (10)
of subsection (a) of Section 1412 of Title 20 of the
United States Code in the event of any of the
following:
(a) At the most recent individualized
education program meeting that a parent or
guardian attended prior to removal of the child
from the public school, the parent or guardian did
not inform the individualized education program
team that they were rejecting the placement
proposed by the local educational agency to provide
a free appropriate public education to the child,
including stating his or her concerns and the intent
to enroll the child in a private school at public
expense.
(b) The parent or guardian did not give
written notice to the local educational agency of the
information described in subdivision (a) at least 10

A-115
business days, including any holidays that occur on
a business day, prior to the removal of the child
from the public school.
(c) Prior to the parent’s or guardian’s
removal of the child from the public school, the local
educational agency informed the parent, through
the notice requirements described in paragraph (3)
of subsection (b) of Section 1415 of Title 20 of the
United States Code, of its intent to assess the child,
including a statement of the purpose of the
assessment that was appropriate and reasonable,
but the parent or guardian did not make the child
available for the assessment.
(d) Upon a judicial finding of unreasonableness with respect to actions taken by a parent
or guardian.
(Amended by Stats. 2005, Ch. 653, Sec. 12.
Effective October 7, 2005.)
Ed. Code § 56505
(a) The state hearing shall be conducted in
accordance with regulations adopted by the board.
(b) The hearing shall be held at a time and
place reasonably convenient to the parent and the
pupil.
(c) (1) The hearing shall be conducted by a
person who, at a minimum, shall possess
knowledge of, and the ability to understand, the
provisions of this part and related state statutes
and implementing regulations, the federal
Individuals with Disabilities Education Act (20
U.S.C. Sec. 1400 et seq.), federal regulations
pertaining to the act, and legal interpretations of

A-116
this part and the federal law by federal and state
courts, and who has satisfactorily completed
training pursuant to this subdivision. The
Superintendent shall establish standards for the
training of hearing officers, the degree of
specialization of the hearing officers, and the
quality control mechanisms to be used to ensure
that the hearings are fair and the decisions are
accurate.
(2) The hearing officer shall possess the
knowledge and ability to conduct hearings in
accordance with appropriate standard legal
practice.
(3) The hearing officer shall possess the
knowledge and ability to render and write decisions
in accordance with appropriate standard legal
practice.
(4) A due process hearing shall not be
conducted by an individual listed in Section
1415(f)(3)(A)(i) of Title 20 of the United States
Code. Pursuant to Section 300.511(c)(2) of Title 34
of the Code of Federal Regulations, a person who is
qualified to conduct a hearing is not an employee of
the agency solely because he or she is paid by the
agency to serve as a hearing officer. The hearing
officer shall encourage the parties to a hearing to
consider the option of mediation as an alternative
to a hearing.
(d) Pursuant to Section 300.518(a) of Title 34
of the Code of Federal Regulations, during the
pendency of the hearing proceedings, including the
actual state-level hearing, or judicial proceeding
regarding a due process hearing, the pupil shall
remain in his or her present placement, except as

A-117
provided in Section 300.533 of Title 34 of the Code
of Federal Regulations, unless the public agency
and the parent agree otherwise. A pupil applying
for initial admission to a public school, with the
consent of his or her parent, shall be placed in the
public school program until all proceedings have
been completed. As provided in Section 300.518(d)
of Title 34 of the Code of Federal Regulations, if the
decision of a hearing officer in a due process hearing or a state review official in an administrative
appeal agrees with the parent of the pupil that a
change of placement is appropriate, that placement
shall be treated as an agreement between the state
or local educational agency and the parent. In
accordance with Section 300.518(c) of Title 34 of the
Code of Federal Regulations, if a due process
hearing request involves an application for initial
services from a child who is transitioning from an
early education program under Chapter 4.4
(commencing with Section 56425) to a special
education program serving individuals with
exceptional needs between the ages of three to five
years, inclusive, under Chapter 4.45 (commencing
with Section 56440), and is no longer eligible for
early education services because the child has
turned three years of age, the local educational
agency is not required to provide early education
services that the child had been receiving. If the
child is found eligible for special education and
related services for children age three years of age
and older, and the parent consents to the initial
provision of special education and related services
under Section 300.300(b) of Title 34 of the Code of
Federal Regulations, the local educational agency

A-118
shall provide those special education and related
services that are not in dispute between the parent
and the local educational agency.
(e) A party to the hearing held pursuant to
this section shall be afforded the following rights
consistent with state and federal statutes and
regulations:
(1) The right to be accompanied and
advised by counsel and by individuals with special
knowledge or training relating to the problems of
individuals with exceptional needs.
(2) The right to present evidence, written
arguments, and oral arguments.
(3) The right to confront, cross- examine,
and compel the attendance of, witnesses.
(4) The right to a written, or, at the option
of the parent, electronic, verbatim record of the
hearing.
(5) The right to written, or, at the option
of the parent, electronic, findings of fact and
decisions. The record of the hearing and the
findings of fact and decisions shall be provided at
no cost to parents in accordance with Section
300.512(c)(3) of Title 34 of the Code of Federal
Regulations. The findings and decisions shall be
made available to the public after any personally
identifiable information has been deleted consistent
with the confidentiality requirements of Section
1417(c) of Title 20 of the United States Code and
shall also be transmitted to the Advisory
Commission on Special Education pursuant to
Section 1415(h)(4) of Title 20 of the United States
Code.

A-119
(6) The right to be informed by the other
parties to the hearing, at least 10 days before the
hearing, as to what those parties believe are the
issues to be decided at the hearing and their
proposed resolution of those issues. Upon the
request of a parent who is not represented by an
attorney, the agency responsible for conducting
hearings shall provide a mediator to assist the
parent in identifying the issues and the proposed
resolution of the issues.
(7) The right to receive from other parties
to the hearing, at least five business days before the
hearing, a copy of all documents and a list of all
witnesses and their general area of testimony that
the parties intend to present at the hearing.
Included in the material to be disclosed to all
parties at least five business days before a hearing
shall be all assessments completed by that date and
recommenda- tions based on the assessments that
the parties intend to use at the hearing.
(8) The right, pursuant to Section
300.512(a)(3) of Title 34 of the Code of Federal
Regulations, to prohibit the introduction of any
evidence at the hearing that has not been disclosed
to that party at least five business days before the
hearing.
(f) (1) In accordance with Section 1415(f)
(3)(E) of Title 20 of the United States Code, the
decision of a due process hearing officer shall be
made on substantive grounds based on a
determination of whether the child received a free
appropriate public education.
(2) In matters alleging a procedural
violation, a due process hearing officer may find

A-120
that a child did not receive a free appropriate public
education only if the procedural violation did any of
the following:
(A) Impeded the right of the child to a
free appropriate public education.
(B) Significantly impeded the opportunity of the parent to participate in the decisionmaking process regarding the provision of a free
appropriate public education to the child of the
parent.
(C) Caused a deprivation of educational benefits.
(3) The hearing conducted pursuant to
this section shall be completed and a written,
reasoned decision, including the reasons for a
nonpublic, nonsectarian school placement, the
provision of nonpublic, nonsectarian agency
services, or the reimbursement for the placement or
services, taking into account the require- ments of
subdivision (a) of Section 56365, shall be mailed to
all parties to the hearing not later than 45 days
after the expiration of the 30-day period pursuant
to subdivision (c) of Section 56501.5. Either party to
the hearing may request the hearing officer to
grant an extension. The extension shall be granted
upon a showing of good cause. The hearing officer
shall apply Rule 3.1332 of the California Rules of
Court in making a determination of what
constitutes good cause. An extension shall extend
the time for rendering a final administrative
decision only for a period equal to the length of the
extension. A second or subsequent extension may
be granted for good cause or any other purpose at
the discretion of the hearing officer.

A-121
(4) This subdivision does not preclude a
due process hearing officer from ordering a local
educational agency to comply with procedural
requirements under this chapter.
(g) Subdivision (f) does not alter the burden
of proof required in a due process hearing, or
prevent a hearing officer from ordering a
compensatory remedy for an individual with
exceptional needs.
(h) The hearing conducted pursuant to this
section shall be the final administrative
determination and binding on all parties.
(i) In decisions relating to the placement of
individuals with exceptional needs, the person
conducting the state hearing shall consider cost, in
addition to all other factors that are considered.
(j) In a hearing conducted pursuant to this
section, the hearing officer shall not base a decision
solely on nonsubstantive procedural errors, unless
the hearing officer finds that the nonsubstantive
procedural errors resulted in the loss of an
educational opportunity to the pupil or interfered
with the opportunity of the parent of the pupil to
participate in the formulation process of the
individualized education program.
(k) This chapter does not preclude a party
aggrieved by the findings and decisions in a hearing
under this section from exercising the right to
appeal the decision to a state court of competent
jurisdiction. An aggrieved party also may exercise
the right to bring a civil action in a district court of
the United States without regard to the amount in
controversy, pursuant to Section 300.516 of Title 34
of the Code of Federal Regulations. An appeal shall

A-122
be made within 90 days of receipt of the hearing
decision. During the pendency of an administrative
or judicial proceeding conducted pursuant to
Chapter 5 (commencing with Section 56500), the
child involved in the hearing shall remain in his or
her present educational placement, unless the
public agency and the parent of the child agree
otherwise. An action brought under this subdivision
shall adhere to Section 300.516(c) of Title 34 of the
Code of Federal Regulations.
(l) A request for a due process hearing
arising under subdivision (a) of Section 56501 shall
be filed within two years from the date the party
initiating the request knew or had reason to know
of the facts underlying the basis for the request. In
accordance with Section 1415(f)(3)(D) of Title 20 of
the United States Code, the time period specified in
this subdivision does not apply to a parent if the
parent was prevented from requesting the due
process hearing due to either of the following:
(1) Specific misrepresentations by the
local educational agency that it had solved the
problem forming the basis of the due process
hearing request.
(2) The withholding of information by the
local educational agency from the parent that was
required under this part to be provided to the
parent.
(m) Pursuant to Section 300.511(c) of Title 34
of the Code of Federal Regulations, each public
agency shall keep a list of the persons who serve as
due process hearing officers, in accordance with
Section 56504.5, and the list shall include a
statement of the qualifications of each of those

A-123
persons. The list of hearing officers shall be
provided to the public agencies by the organization
or entity under contract with the department to
conduct due process hearings.
(n) A party who filed for a due process
hearing before the effective date of this section is
not bound by the two-year statute of limitations
time period in subdivision (l) if the party filed a
request within the three-year statute of limitations
provision pursuant to subdivision (l), as that
subdivision read before October 9, 2006.
(Amended by Stats. 2018, Ch. 874, Sec. 1. (AB 2580)
Effective January 1, 2019.)

